OFFICE OF INSPECTOR GENERAL
     Semiannual Report
      To The Congress
                            F TR A N S
                      TO                 PO
                 EN


          TM




                                          RT
                                              A TI
        DEP AR




                                               ON
        UN




                                              A
                                              IC
           IT




                                         ER
                 D
             E




                     ST               M
                          AT ES O F A




       April 1, 1997—September 30, 1997
October 30, 1997


The Honorable Rodney E. Slater
Secretary of Transportation
Washington, DC 20590

Dear Mr. Secretary:

It is a pleasure to submit the Semiannual Report to the Congress for the 6-month period ended
September 30, 1997. The report describes accomplishments of the Office of Inspector General (OIG) as
required by the Inspector General Act of 1978, as amended.

During this reporting period, OIG issued 74 audit reports with total financial recommendations of
$129.9 million. Our audit of the Department’s first consolidated financial statement resulted in $32 billion
of adjustments and spurred significant internal controls improvements. Investigative actions resulted in 72
indictments, 76 convictions, and $4.9 million in monetary recoveries from fines, restitutions, judgments, and
recoveries.

OIG strives to work proactively with Operating Administrations to prevent fraud, waste, and abuse and to
find and correct problems in their incipiency. Our highest priority is oversight of DOT’s transportation safe-
ty programs. As one example, we are conducting a joint review with the Federal Aviation Administration on
implementation of the task force report of safety oversight functions. We also place a high priority on effi-
cient and effective investment in transportation infrastructure. To this end, we continue oversight of major
transportation infrastructure projects to determine potential financial and schedule risks, including the
Central Artery/Third Harbor Tunnel project and Amtrak’s Northeast Corridor improvements. Another area
we emphasize is oversight of internal operations of the Department to improve operating effectiveness and
efficiency. For example, we will evaluate the utility and cost effectiveness of the Transportation
Administrative Service Center in Fiscal Year 1998.

OIG appreciates the spirit of cooperation, open lines of communication, and support extended by you,
Mr. Secretary, and employees throughout the Department.

Sincerely,



Kenneth M. Mead
Inspector General
This page left blank intentionally.




               ii

                                          TABLE OF CONTENTS
                                       April 1, 1997 — September 30, 1997


LETTER TO THE SECRETARY ...................................................................................... i
A MESSAGE TO THE SECRETARY OF TRANSPORTATION, THE
CONGRESS, AND THE AMERICAN PUBLIC............................................................. iv
SUMMARY OF OIG PERFORMANCE ......................................................................... vi
SECTION I - ACCOMPLISHMENTS AND MAJOR INITIATIVES .......................... 1
SECTION II - AUDIT ACTIVITY
     A. Introduction.......................................................................................................................................... 9
     B. Audit Accomplishments....................................................................................................................... 9
     C. Requested Audits and Reviews........................................................................................................... 9
     D. Selected Significant Findings and Recommendations.................................................................... 12
     E. Management Decisions...................................................................................................................... 19
     F. Application of Audit Resources......................................................................................................... 25

SECTION III - INVESTIGATIONS ACTIVITY
     A. Introduction........................................................................................................................................ 29
     B. Investigative Accomplishments......................................................................................................... 29
     C. Selected Investigations ...................................................................................................................... 31
     D. Other Significant Events................................................................................................................... 37
     E. Application of Investigative Resources............................................................................................ 38

SECTION IV - OIG HOTLINE
     A. OIG’s Hotline Complaint CenterActivities.................................................................................... 41
     B. Selected Hotline Complaints............................................................................................................. 41

SECTION V - ORGANIZATION AND MANAGEMENT
     A. Organization and Staffing ................................................................................................................ 45
     B. Streamlining and National Performance Review Goals ................................................................ 47
     C. Review of Legislation and Regulations............................................................................................ 47
     D. Freedom of Information Act (FOIA) .............................................................................................. 48

APPENDICES
     Glossary of Acronyms and Terms Used in This Report ................................................................... A-1
     Listing of Reports Issued During This Reporting Period ................................................................ B-1
     Reporting Requirements...................................................................................................................... C-1


   NOTE: There have been no instances during this reporting period where information requested by OIG
         was refused by Department officials. Accordingly, we have nothing to report pursuant to Section
         5(a)(5) of the Inspector General Act of 1978, as amended.




                                                                              iii

A MESSAGE TO THE SECRETARY OF TRANSPORTATION, THE CONGRESS,
AND THE AMERICAN PUBLIC:


  The Inspector General Act of 1978 (the IG Act), as amended, established the Office of
Inspector General (OIG) as an independent and objective organization within the
Department of Transportation (DOT). OIG conducts audits and investigations to promote
economy, efficiency, and effectiveness in DOT programs and operations (total appropriat -
ed budget of $39.2 billion in Fiscal Year 1997). We prevent and detect fraud, waste, and
abuse. Lessons learned from our reviews and examples of “best practices” are identified
so they can be applied throughout the Department. OIG accomplishments are reported to
the Secretary, Congress, and the public on a semiannual basis.

   A new feature in this Semiannual Report is a section highlighting major OIG accomplish -
ments and initiatives in support of DOT’s Strategic Plan. Section I - Accomplishments and
Major Initiatives, lists the strategic goals of the plan, notes significant OIG accomplishments
relating to each goal, and highlights major work OIG plans to do in Fiscal Year (FY) 1998
relevant to each goal.

  The Department’s Strategic Plan established five strategic goals to guide the agency over
the next 5 years:

       ♦ PROMOTING PUBLIC HEALTH AND SAFETY
       ♦	 SHAPING AMERICA’S FUTURE THROUGH ACCESSIBLE, SEAMLESS, EFFICIENT, AND
          FLEXIBLE TRANSPORTATION SYSTEMS
       ♦ ADVANCING AMERICA’S ECONOMIC GROWTH AND COMPETITIVENESS
       ♦ PROTECTING AND ENHANCING COMMUNITIES AND THE NATURAL ENVIRONMENT
       ♦ ADVANCING THE NATION’S VITAL SECURITY INTERESTS

   These five goals emphasize the importance of improving America’s transportation safety
and infrastructure. OIG will work to find solutions to complex transportation issues, identi -
fy actions which will enhance transportation safety in all modes, make transportation pro -
grams more efficient, and assist the Secretary and the Congress in oversight of the
Department. Oversight of DOT’s safety programs is a top priority. Since 1992, OIG has
issued 32 major reports addressing safety issues and made over 150 recommendations to
improve safety programs and operations. We also devote resources to review “mega” infra -
structure projects, including the Central Artery/Third Harbor Tunnel in Boston, the City of
Los Angeles Metrorail expansion, and the Amtrak Northeast Corridor Improvements Project.
Resources are directed as well to the internal operations of the Department with a view
toward preventing waste and promoting effectiveness and efficiency. An example is the review
of the Transportation Administrative Service Center to evaluate its utility and cost effective -
ness as a centralized service provider.




                                              iv
   OIG also has significant responsibilities under the Chief Financial Officers (CFO) Act, the
Government Performance and Results Act (Results Act), and the Government Management
Reform Act. We perform audits of DOT’s financial statements, including the Aviation and
Highway Trust Funds, assess internal control systems, and identify opportunities to achieve
financial benefits. Whenever practical, we now include a Results Act element in our audits,
i.e., we determine if realistic performance measures have been established and quality data
exists to support those measures. OIG is working with the Office of the Secretary to develop
a plan for program evaluations, reviewing the adequacy of these evaluations, and conduct -
ing, where appropriate, independent evaluations of DOT operations and programs.

   OIG’s oversight responsibilities play a key role in assisting DOT in reaching long-term
goals and objectives. Consistent with statutory responsibilities in the IG Act, OIG proactive -
ly supports the Secretary’s priorities of improving safety, investing in transportation infra -
structure, and implementing common sense government.

  OIG values open lines of communication and constructive working relationships with
the Secretary and the Operating Administrations (OA). We appreciate the support of the
Secretary, Members of Congress, and all DOT operating administrators and departmental
employees and welcome input to improve OIG efficiency and effectiveness.



                                      Kenneth M. Mead
                                      Inspector General




                                              v
SUMMARY OF OIG PERFORMANCE



OIG Accomplishments   April 1, 1997 - September 30, 1997


                      Number of reports issued                        74

                      Total financial recommendations                 $129,968,000

                        - Recommendations that funds be put to        $111,559,000
                          better use

                        - Questioned costs                            $18,409,000

                      Referrals for criminal prosecution, civil       221
                      litigation, and administrative action

                      Cases accepted for prosecution                  175

                      Indictments                                     72



Results Attained      CFO Related Adjustments                         $32,000,000,000

                      Management decisions to seek recoveries         $142,233,000

                      Investigative fines, restitutions, and          $4,945,165
                      recoveries

                      Convictions                                     76

                      Contractors/individuals suspended or debarred   17

                      Administrative actions taken involving          32
                      DOT employees




                                         vi

              SECTION I
 ACCOMPLISHMENTS AND MAJOR INITIATIVES
  In order to better serve Congress and the Department, OIG has begun to focus its work
towards addressing the strategic goals as recently outlined by the Secretary in the DOT
Strategic Plan. Following is a discussion of work completed and planned for each goal.

❑        DOT STRATEGIC GOAL: S AFETY

“Promote the public health and safety by working toward the elimination of transportation-
related deaths, injuries, and property damage.”

    Major accomplishments during the reporting period:

    • OIG’s audit of the Federal Highway Administration’s
      (FHWA) Motor Carrier Safety Program made recom-
      mendations designed to improve the accuracy, prompt-
      ness, and quality of compliance reviews as part of ongo-
      ing efforts to reduce the almost 5,000 fatalities a year
      attributable to trucking accidents. FHWA agreed to
      implement improvements to enhance the effectiveness
      of compliance reviews, emphasize on-the-road perfor-
      mance data to identify high-risk carriers for review, and
      create a new system for assessing increased penalties for continued noncompliance.

                                  • OIG’s review of Federal Aviation Administration’s
                                  (FAA) Aviation Inspection Program recommended estab-
                                  lishing specific requirements for providing airworthiness
                                  inspectors with systems training and periodic recurrent
                                  training. FAA agreed with this recommendation. OIG is
                                  performing additional work to assess the implementation of
                                  FAA’s 1996 recommendations to improve its Aviation
                                  Inspection Program.

    • In order to strengthen the United States Coast Guard’s (USCG) Merchant Mariner
      Licensing and Documentation (MLD) Program, OIG made recommendations concern-
      ing mariner qualifications and management effectiveness and oversight. This program
      issues over 50,000 licenses annually to qualified pilots, engineers, radio officers, and
      crew members. USCG has undertaken the following corrective actions: (1) establish
      new regulations which will require mariners to demonstrate professional skills to quali-
      fy for licenses and documents, and meet appropriate physical standards; (2) issue a Draft
      Commandant Notice establishing requirements and procedures for authenticating self-
      certified sea service; (3) develop a non-standardized modular exam for applicants; and



                                               1

  (4) revise the Marine Safety Manual to direct greater attention to management oversight
  of Regional Examination Centers.

• OIG and FAA participated in a joint training program to
  teach FAA inspectors about the national suspected unap-
  proved parts (SUPs) policy and how to properly investi-
  gate SUPs allegations. An instructional phase was initi-
  ated in April 1997, with over 50 classes taught during
  FY 1997 throughout the United States and Europe. Over
  1,200 inspectors have attended the training to date.

    Major FY 1998 OIG Initiatives:

    ♦ In 1996, FAA established a task force to review its safety oversight functions fol-
      lowing the ValuJet crash in southern Florida. The task force’s 1996 report made
      numerous policy and program recommendations to improve FAA operations. OIG
      is conducting a joint review with FAA to assess the implementation of the recom-
      mendations made by the task force.
    ♦ Assess enforcement of motor carrier and hazardous materials (HAZMAT) safety
      standards being phased-in at the United States borders with Mexico and Canada.
    ♦ Review FHWA efforts to analyze post-accident data on commercial motor
      carrier crashes and evaluate plans to develop countermeasures addressing con-
      tributing human factors (driver fatigue, alcohol, drugs, and medical conditions).




                                          2

        ♦ Evaluate the effectiveness of the Federal Railroad
          Administration’s (FRA) interim policy on bridge safe-
          ty programs and the effectiveness of the Safety
          Assurance and Compliance Program. Of particular
          interest is the potential threat to rail and bridge struc-
          tures caused by expected “El Nino” climatic conditions
          in 1998.
        ♦ Update an assessment of DOT’s actions to correct Year 2000 computer problems,
          with particular focus on those systems crucial to DOT safety missions.
        ♦ Review the adequacy of FAA’s efforts to reduce runway incursions (287 recorded
          in 1996; annual statistics show an upward trend).
        ♦ Develop and implement a strategic plan to address OIG oversight coverage of key
          safety issues in DOT operating administrations. This includes such safety issues as
          operator fatigue and related human factors, pilot dependency on automation, terrain
          avoidance systems, and techniques for deploying safety inspection resources to
          areas of high risk.


❑       DOT STRATEGIC GOAL: MOBILITY

“Shape America’s future by ensuring a transportation system that is accessible, seamless,
efficient, and offers flexibility of choices.”

    Major accomplishments during the reporting period:

    • An OIG audit of FHWA’s Emergency Relief Program concluded FHWA could have made
      better use of $104 million in emergency relief funding. During the period of 1988 to
      1995, FHWA provided $2.7 billion relief funding to help states repair damaged high -
      ways, roads, and facilities. OIG recommended FHWA recover $1.9 million in overpay-
                                   ments and improve the administration of emergency relief
                                   funds. FHWA concurred with most of the recommendations
                                   and is initiating actions to recover certain overpayments,
                                   update its Emergency Relief Manual to provide funding on
                                   a consistent basis among states, clarify eligibility matters,
                                   improve program administration, and develop enhanced
                                   training and oversight capabilities.

      As part of the FY 1998 DOTappropriation bill, the U.S. Congress required FHWA to pre-
      pare a report explaining when emergency relief funds can be used to pay for “better-
      ments” (ineligible costs associated with improvements); provide examples of the types of
      betterments FHWA would expend to fund; closely monitor the expenditure of funds; and
      adhere to program eligibility criteria.




                                               3

• An OIG audit found FAA was not effectively reviewing its airport improvement grant
  funds resulting in an accumulation of more than $28 million of idle grant funds and $1.3
  million of unneeded funds from projects totaling over $172 million in FY 1994 and 1995.
  OIG recommendations included (1) establishing requirements for deobligating or repro-
  gramming unneeded or idle funds; (2) ensuring FAA’s grant managers have the necessary
  project status information to monitor projects; and (3) establishing procedures for the
  review and monitoring of unexpended grant obligations. FAA concurred with the find-
  ings and issued program guidance addressing each recommendation.

• An OIG audit determined the State of Hawaii inappropriately used airport generated rev-
  enues to purchase land, located some distance from the Honolulu Airport, that was not
  needed for airport purposes. The State reimbursed $64.4 million to the Airport Division
  of the Hawaii Department of Transportation in January 1997. In September 1997, the
  Airport Division suspended the collection of airport landing fees from commercial air
  carriers landing in Hawaii for two years, a cost saving of roughly $40 million for the air-
  lines. Air travelers and the tourism industry may benefit from this action by reduced air-
  fares for flights to Hawaii over the next two years.

     Major FY 1998 OIG Initiatives:

    ♦ Review selected DOT “mega” infrastructure projects (each with an estimated cost
      of $1 billion or more) to determine the current cost and work schedule status, rea-
      sonableness of supporting data, and potential financial and schedule risks of each
      project. Identified “best practices” and lessons learned our actions will be dissemi-
      nated for use in other DOT operations and programs. Projects include:

         1. Central Artery/Third Harbor Tunnel (CA/THT), Boston, Massachusetts (esti -
            mated cost - approximately $11 billion)




                Central Artery/Third Harbor Tunnel Project, Boston, MA.




                                            4

           2. Cypress Freeway Replacement Project, Oakland, California (estimated cost -
              $1.1 billion)
           3. Interstate 15 Reconstruction, Salt Lake City, Utah (estimated cost - $1.6 bil -
              lion)
           4. Bay Area Rapid Transit’s extension at the San Francisco International Airport
              (estimated cost - $1.2 billion)
           5. City of Los Angeles Metro Rail Recovery Plan for subway completion (esti -
              mated cost - $6.1 billion)
           6. Amtrak Northeast Corridor Improvement Project (estimated cost - $4.4 bil -
              lion). In addition, examine the implications of a $2.3 billion tax reimburse -
              ment plan contained in Amtrak’s reauthorization bill.
           7. Washington Metropolitan Area Transit Authority (WMATA) Fast Track Rail
              Construction, Washington, District of Columbia (estimated cost - $1.9 bil -
              lion)
           8. West Virginia’s ”Corridor H” Project, Elkins to Wardensville, West Virginia
              (estimated cost - $1.0 billion)

      ♦ Review FAA’s multi-billion dollar effort to modernize the
        national airspace system, the advanced aviation infrastruc-
        ture to support air operations. OIG will focus in particular
        on the Standard Terminal Automation Replacement System
        and integration of satellite technology into aviation commu-
        nication, navigation, and airspace surveillance.
      ♦ Complete an ongoing investigation of expenditures made under FAA’s Advanced
        Automation System contract. $1.2 billion was spent since 1983 to upgrade en
        route, terminal, and tower automation systems.
      ♦ Continue to review airport revenue usage to ensure compliance with FAA’s grant
        assurance agreements and prevent illegal diversions.
      ♦ Conduct investigations of allegations concerning major infrastructure projects
        including joint investigations with Federal and local law enforcement authorities.


❑     DOT STRATEGIC GOAL: E CONOMIC GROWTH AND TRADE

“Advance America’s economic growth and competitiveness domestically and international -
ly through efficient and flexible transportation.”

      Major FY 1998 OIG Initiatives:

      ♦ Complete the ongoing review of the accuracy and completeness of air carrier
        Passenger Origin-Destination Survey data (airline passenger counts, itineraries, and



                                             5

            fares paid) and determine if there are alternative procedures which could be used to
            provide the data more accurately and efficiently.
        ♦   Audit the accuracy and reliability of airline on-time arrival performance data.
        ♦   In response to language in the FY 1998 DOT appropriation bill, evaluate the utility
            and cost effectiveness of the Transportation Administrative Service Center; deter-
            mine the responsiveness to customer needs at a competitive price; and assess
            whether FAA’s franchise fund duplicates or reduces the center’s cost effectiveness.
        ♦   Review FAA’s efforts to establish a cost accounting system that accurately accounts
            for aviation system costs and their allocation.
        ♦   Evaluate DOT actions to meet the needs of new “mega” tankers and freighters that
            require deep channel depths and adequate port facilities.




❑        DOT STRATEGIC GOAL: H UMAN AND NATURAL ENVIRONMENT

“Protect and enhance communities and the natural environment affected by transportation.”

    Major accomplishments during the reporting period:

    • An OIG audit found USCG policies and procedures for gauging the performance of oil
      spill cleanup contractors were effective. OIG also determined USCG monitoring actions
      of cleanup services were sufficient to ensure oil spill cleanups were timely and complete.

      OIG did find, however, certain USCG contracting procedures related to oil spill cleanup
      needed improvement. While the USCG was effective in ensuring oil spill cleanup was
      performed, USCG did not properly bill responsible parties for the cost of cleanup, result-
      ing in $8 million of unbilled accounts receivable. USCG agreed to develop uniform
      national contracting procedures; perform annual market surveys of oil spill cleanup con-
      tractors; and follow policies and procedures for billing responsible parties. The USCG
      has billed $7 million of the outstanding unbilled accounts receivable.




                                                6

       Major FY 1998 OIG Initiatives:

      ♦ Determine whether USCG has established a complete inventory of contaminated
        USCG facilities, prioritized cleanup of sites representing the greatest hazard to the
        public, and effectively developed and implemented plans to accomplish the goals of
        the Environmental Compliance and Restoration Program.
      ♦ Review USCG compliance with the Enforcement of Abandoned Barge Act, a pro-
        gram to eliminate the navigation and environmental hazards posed by 1,180 aban -
        doned barges (1996 USCG inventory) in U.S. waterways.
      ♦ Develop and coordinate Federal actions on a multi-agency approach, with Federal
        and state law enforcement and other Government agencies, including DOT, to
        exchange information on environmental problems, trends, and potential polluters.
      ♦ Expedite OIG investigations of alleged HAZMAT viola-
        tions. HAZMAT issues are one of OIG’s highest priori -
        ties due to the potential threat of such materials to the
        natural environment and public health.
      ♦ Evaluate FAA oversight of hazardous cargo shipped by air
        under the Dangerous Goods/Cargo Security Program
        (unofficial estimate is over 900 tons per day on passenger
        carriers).


❑      DOT STRATEGIC GOAL: N ATIONAL SECURITY

“Advance the nation’s vital security interests in support of national strategies such as the
National Security Strategy and National Drug Control Strategy by ensuring that the trans -
portation system is secure and available for defense mobility, that our borders are safe from
illegal intrusion, and by promoting worldwide economic growth and stability.”

       Major FY 1998 OIG Initiatives:

      ♦ Assess FAA progress in taking actions to purchase and ensure the effective use of
        advanced security equipment, and correct other aviation security weaknesses
        reported in OIG audits and identified by the White House Commission on Aviation
        Safety and Security.




                                             7

♦ Evaluate the Maritime Administration’s (MARAD) oversight of the Maritime
  Security Act and the Maritime Security Program. The program enrolls private ves-
  sels for use in commercial sealifts in time of war or national emergency and main-
  tains a United States international shipping presence. MARAD payments totalled
  $43.6 million in FY 1997 on the Maritime Security Program.
♦ Evaluate MARAD’s Title XI Ship Financing Program and applications for selected
  shipyard and ship loan guarantees ($37.4 million funding in FY 97).
♦ Review USCG oversight of security on passenger vessels at marine terminals.




                                      8

                    SECTION II - AUDIT ACTIVITY

A. I NTRODUCTION                                         B. AUDIT ACCOMPLISHMENTS

   This section summarizes OIG audit activi-                DOT's programs and operations are primar-
ties for the 6-month period ended                        ily carried out by departmental personnel and
September 30, 1997.                                      recipients     of    Federal-aid     (grantees).
                                                         Accordingly, audits are conducted from three
   The Office of Assistant Inspector General             distinct perspectives: (i) internal audits of
(AIG) for Auditing is responsible for conduct-           DOT programs and operations, (ii) grantee
ing audits, evaluations, and reviews of pro-             audits, and (iii) contractor reviews. A statisti-
grams and operations of DOT. The audits are              cal summary of audits completed in these cat-
intended to help managers improve and                    egories is shown in Table 1.
enhance the effectiveness of DOT programs
and operations. Audits, evaluations, and
                                                         C. R EQUESTED AUDITS AND REVIEWS
reviews are also designed to provide reason-
able assurance of detecting abuse or illegal
acts and generally fall within the following                Providing requested services to departmen-
two audit categories:                                    tal, congressional, and other officials is an
                                                         important function of OIG. These services are
  •	 Financial audits — include financial                intended to provide management officials with
     statement and financial-related audits.             timely and meaningful advice and assistance
                                                         on departmental and Governmentwide opera-
  •	 Performance audits — include economy                tions and activities. Examples of requested
     and efficiency and program audits.                  services provided by the audit organization in
                                                         this reporting period are discussed below.
   OIG's audit activities during this period
were responsive to management's needs while                 1. In response to a request from FAA, OIG
at the same time fulfilling the mandates of the          audited the use of airport revenue by the Dade
IG Act and the CFO Act. DOT programs and                 County Aviation Department in Miami,
operations selected for audit were based on the          Florida. The audit disclosed Dade County
magnitude of Federal funds involved, past                used airport-generated revenue for prohibited
audit activity, and the susceptibility of the            purposes. OIG found Dade County improper-
activity to abuse and illegal acts. Additionally,        ly used airport-generated revenue to: (i) pay
Secretarial, OA, congressional, and the                  nonairport-related roadway, fire, and police
President's Council on Integrity and Efficiency          impact fees; (ii) fund nonairport-related public
concerns were considered in the allocation of            relations activities of Dade County; and (iii)
OIG audit resources.                                     pay building permit fees for inspection ser-
                                                         vices that were either not properly document-
                                                         ed or were duplicative. Prohibited use of air-
                                                         port-generated revenue occurred because Dade
                                                         County management disregarded assurances it
                                                         provided FAA related to revenue use. OIG



                                                    9

SECTION II - AUDIT ACTIVITY




                                                     Table 1
                                Completed Audits April 1, 1997 to September 30, 1997
                                              (Dollars in Thousands)

                                                                                 Estimated Amounts*

                                               Number of                                    Funds To Be     Adjustments
                                 Number of     Recommen-        Costs           Costs         Put To        and Reclassi-
 Type of Review                   Reports        dations      Questioned     Unsupported     Better Use      fications **

 Internal Audits:
      Program/Functional             14             49           $7,563       $4,000        $111,479                 $0
      Chief Financial Officer
        Financial Statements:
          DOTConsolidated             2             77               $0           $0              $0        $32,000,000
          FRA                         1              2               $0           $0              $0                 $0
        Total Internal Audits        17            128           $7,563       $4,000        $111,479        $32,000,000

 Grant Audits:
     Audits of Grantees under
       Single Audit Act              49             14           $8,206           $0              $0                 $0
     Other Grant Audits               2              2               $0           $0             $80                 $0
       Total Grant Audits            51             16           $8,206           $0             $80                 $0

 Contract Audits:
     Contracts                        6              6         $2,640             $0              $0                 $0
       Total Contract Audits          6              6         $2,640             $0              $0                 $0
            TOTALS                   74            150        $18,409         $4,000        $111,559        $32,000,000


 *     The dollars shown are the amounts reported to management. The actual amounts may change during final resolution.
 **    An adjustment occurs when an amount in an account should be moved to another account in another section of the
       financial statement. A reclassification occurs where the balance in an account includes amounts that should be in
       another account.




identified prohibited use of airport-generated                 ing permits costs. FAA agreed to request addi-
revenues totaling $4.3 million during the peri-                tional documentation from Dade County
od October 1989 through May 1996. OIG also                     before establishing the final eligibility of
considered $4 million of building permit fees                  $220,000 of promotional fees. For the $4 mil-
charged to the airport fund to be unsupported                  lion OIG identified as unsupported building
costs because Dade County Aviation                             permit costs, FAA agreed to require Dade
Department was unable to document whether                      County to distinguish between eligible costs
inspection services were provided or neces-                    and refund the fees paid inappropriately.
sary.
                                                                 2. In response to a request from the
   OIG recommended FAA and Dade County                         Chairman, Committee on Commerce, Science,
improve management controls, restrict the use                  and Transportation, U.S. Senate, related to
of airport-generated revenues, recover prohib-                 DOT, Department of Commerce, the National
ited expenditures for nonairport-related                       Aeronautics and Space Administration
expenses charged to the airport fund, and                      (NASA), and the National Science
establish the eligibility of unsupported build-                Foundation, OIG and General Accounting



                                                           10

                                                                                  SECTION II - AUDIT ACTIVITY



Office (GAO) jointly identified the top ten              Investment Funds - DOT needs to work with
management issues facing DOT. In develop-                states and transit operators to enhance their
ing the top ten management issues, OIG and               ability to more effectively manage the costs of,
GAO work included the: (i) identification of             and acquire financing for, large-dollar surface
items most in need of reform to improve effi-            transportation projects; (vi) Amtrak Financing
ciency and effectiveness, including manage-              - Nationwide passenger rail service is threat-
ment structure and specific programs under the           ened      by     financial    problems;     (vii)
purview of the agency; (ii) identification of            Organizational Structure - DOT needs to
steps taken to meet the requirements of the              develop an appropriate management structure
Results Act; (iii) our opinion on whether the            to achieve the most cost-effective delivery of
agency is in compliance with the requirements            services; (viii) Information Resources - DOT’s
of the CFO Act and whether financial state-              information resources and databases are not
ments are being prepared and being audited in            managed adequately and hinder DOT’s efforts
compliance with the law; and (iv) identifica-            in achieving its mission; (ix) DOT’s Financial
tion of what the agency is doing to meet “Year           Accounting - Problems with financial account-
2000” computer problems. The information                 ing and reporting hinder DOT’s ability to
came from work by OIG and GAO.                           ensure the proper use of federal funds and pre-
                                                         sent reliable financial statements on those
   The top ten management issues for DOT                 funds, and to varying degrees, affect all admin-
include: (i) Transportation Safety - DOT needs           istrative and program areas; (x) Compliance
to improve the safety of air, highway, rail and          with Existing Requirements - DOT’s OAs
marine transport to reduce the number of acci-           need to improve their compliance with existing
dents, fatalities, and associated economic               requirements.
costs; (ii) Transportation Security - Protecting
the security of the traveling public is one of              In the Results Act area, DOT is revising its
DOT’s most challenging and difficult tasks.              current strategic plan, dated January 1994, to
The U.S. domestic aviation system continues              meet Results Act requirements. The revision
to have numerous vulnerabilities that leave it           encompasses steps to clarify DOT’s mission;
susceptible to terrorism. While GAO’s and                establish results-oriented goals; and develop
OIG’s audits have emphasized aviation securi-            measures that show progress towards results-
ty, all modes of transportation are vulnerable to        oriented goals.
terrorist attacks; (iii) Air Traffic Control
Modernization - FAA’s multi-billion dollar air              In the CFO Act area, DOT has achieved lim-
traffic control modernization program has                ited success in preparing reliable auditable
been plagued with cost overruns, schedule                financial statements. However, DOT faces
delays, and shortfalls in performance; (iv)              several important challenges to meeting finan-
FAA Financing - FAA could face potential                 cial statement mandates including: (i) correct
funding shortfalls totaling several billion dol-         known weaknesses to produce reliable finan-
lars over the next 5 years. These shortfalls             cial statements; (ii) implement new Federal
could be mitigated, to some extent, if FAA               accounting standards to effectively meet
controls costs and/or increases productivity. In         Federal financial management goals; (iii)
addition, FAAneeds to develop a cost account-            implement and maintain financial manage-
ing system to provide the financial manage-              ment systems that comply substantially with
ment information necessary to make decisions             Federal financial management systems
that may help close this shortfall; (v) Effective        requirements and the U.S. Government
and Efficient Use of Surface Transportation              Standard General Ledger at the transaction


                                                    11
SECTION II - AUDIT ACTIVITY



level; and (iv) submit fully auditable financial     nology for communications, navigation, and
statements that cover all accounts and associ-       surveillance. Also addressed were four issues
ated activities.                                     relating to satellites that need resolution in
                                                     order to successfully implement satellite based
   As DOT begins to deal with the Year-2000          systems. These issues were: the availability
computer issue, it is essential that executive       and use of a second Global Positioning System
management be fully aware of the problem and         signal, the number of communications satel-
its potential impact on DOT and those who use        lites needed and whether to lease or purchase
its services. According to DOT’s Year-2000           them, the ability to receive satellite signals
coordinator, the awareness campaign is about         adequate for civil aviation when solar activity
67-percent complete. However, DOT has not            is at its peak, and the ability to adequately
completed some of the key tasks inherent in          secure Global Positioning System signals from
the awareness phase. In addition, DOT does           intentional interference.
not have a complete inventory of mission-crit-
ical systems.
                                                     D. S ELECTED SIGNIFICANT FINDINGS AND
                                                     RECOMMENDATIONS
  OIG and GAO testified before the U.S.
Senate, Committee on Commerce, Science,
and Transportation on the safety related man-           The following examples are illustrative of
agement issues.                                      the types of findings and recommendations
                                                     made to departmental officials during the past
   3. The Inspector General testified on             6 months. These audits are presented by cate-
October 1, 1997, before the House Committee          gory of audit — Departmentwide and
on Transportation and Infrastructure,                Administrationwide, Financial Statement, and
Subcommittee on Aviation on “Observations            Facility/Regional. Due to the recent issuance
on the FAA’s Plan to Use Satellite Technology        of some reports, final disposition or resolution
for Air Traffic Management.” The testimony           may not be complete. OIG will evaluate the
addressed the need for FAA to complete a             responses to final reports and, if disagreements
comprehensive, agreed upon, lucid plan and           occur, will seek resolution through the
strategy for transitioning to satellite tech-        Department’s formal resolution process.



 DEPARTMENTWIDE AND
 ADMINISTRATIONWIDE AUDITS
AUDITS ADDRESSING A CONDITION OR PROBLEM THROUGHOUT THE DEPARTMENT OR A
PARTICULAR OA
FHWA DID NOT USE EMERGENCY RELIEF FUNDS IN ACCORDANCE WITH PROGRAM CRITERIA.
(Report No. R0-FH-7-009)

  OIG Findings                                           Georgia, Missouri, and Washington. These

                                                         states received $2.3 billion of the $2.7 billion

  OIG audited FHWA’s administration of                   emergency relief funds FHWA provided on

emergency relief funds in California, Florida,           Federal-aid highways between October 1,




                                                   12

                                                                                 SECTION II - AUDIT ACTIVITY



1988 and June 30, 1995. OIG audited 82 pro-               prior location, and the replacement facility is
jects, which accounted for $1.3 billion of the            comparable to function and service of the pre-
$2.3 billion emergency relief paid to the five            disaster facility. However, FHWA agreed its
states.                                                   guidance pertaining to betterments needs to
                                                          be clarified and is updating its guidance to
   OIG found FHWA properly pursued and                    make the necessary clarifications.
received credits from insurers and responsible
third parties when Federal aid was used to pay               Except as noted above, FHWA had ade-
for repairs to damaged highway facilities.                quate guidance for administering the emer-
However, FHWA needs to improve program                    gency relief funds. However, FHWA did not
guidance and adherence to existing regula-                always follow this guidance when approving
tions.                                                    emergency relief projects. OIG questioned
                                                          whether FHWA used emergency relief funds
   FHWA did not have adequate program                     in accordance with regulations for 27 projects.
guidance on how to address ineligible costs               OIG found FHWA: (i) exceeded the Federal
associated with improvements, generally                   share payable for 19 projects; (ii) duplicated
referred to as “betterments”, recommended as              assistance available under other Federal pro-
a result of environmental reviews. OIG                    grams for five projects; (iii) did not prepare
reviewed 10 projects for repairing damage                 economic justifications for two projects, nei-
caused by the Loma Prieta Earthquake to the               ther of which resulted from an environmental
Cypress Viaduct in Oakland, California. The               review; and (iv) did not withdraw funds for
10 projects, valued at $879 million, included             one project that was not proceeding timely to
betterments recommended through the envi-                 construction. OIG concluded FHWA could
ronmental review process. FHWA did not                    have made better use of $104 million of the
determine whether the betterments, which                  $463 million emergency relief funding pro-
included replacing the 1.5 mile, two-tier high-           vided for the 27 projects.
way with five miles of single-tier freeway,
while adding new interchanges to improve                    OIG Recommendations
access to local streets and port facilities, were
economically justified. Although required by                 OIG recommended FHWA recover over-
Code of Federal Regulations, FHWA guid-                   payments, $1.9 million, caused by billing
ance did not clearly require betterments                  errors for eight projects. OIG did not recom-
resulting from the environmental review                   mend FHWA recover funds for any additional
process to be economically justified.                     projects because states acted in good faith
                                                          based on FHWA advice. To improve adminis-
   According to FHWA, the 10 projects, val-               tration of emergency relief funds, OIG recom-
ued at $879 million, included features devel-             mended the Acting Administrator, FHWA (i)
oped through the environmental review                     update program guidance to ensure better-
process which included replacing the 1.5                  ments recommended by the environmental
mile, two-tier highway with five miles of sin-            review process are economically justified, (ii)
gle-tier freeway, while adding new inter-                 direct Headquarters staff to regularly monitor
changes to improve access to local streets and            and consult with field staff to ensure adher-
port facilities. FHWA is of the opinion the               ence to existing regulations, and (iii) direct
Cypress replacement project does not involve              field staff to closely monitor emergency relief
a betterment issue because the state could not            projects and reprogram funds for those pro-
have repaired or replaced the facility on its             jects not progressing in a timely manner.


                                                    13

SECTION II - AUDIT ACTIVITY



  Corrective Actions                                     clarify eligibility matters, and improve pro-
                                                         gram administration. Further, FHWA plans to
   FHWA concurred with the recommenda-                   develop a training course on the Emergency
tions and is taking action to recover overpay-           Relief Program by October 1998, while con-
ments totaling $1.9 million. Also, FHWA                  tinuing workshops to discuss regulations and
expects to update its Emergency Relief                   guidance with Federal, state, and local agency
Manual by March 1998 to ensure funding is                personnel. Finally, FHWA will more closely
provided on a consistent basis among states,             monitor emergency relief projects.



THE USCG’S MERCHANT MARINER LICENSING AND DOCUMENTATION PROGRAM DID NOT
ENSURE MERCHANT MARINERS WERE QUALIFIED TO PERFORM THEIR DUTIES, AND LACKED
ADEQUATE OPERATING PROCEDURES AND CONTROLS.
(Report No. R9-CG-7-013)

  OIG Findings                                              USCG issued licenses and documents to
                                                         merchant mariners without ensuring they
   The USCG’s MLD Program did not effec-                 were qualified to perform their duties. This
tively ensure merchant mariners were quali-              occurred because eligibility was based on
fied to perform their duties, and could be               unverified quantity, not quality, of sea experi-
more effectively managed. The goal of the                ence; examinations were not challenging and
MLD Program is to ensure merchant mariners               did not require demonstration of mariners' sea
are qualified to perform their duties for the            skills; physical standards did not ensure
purpose of: (i) promoting the safety of life             mariners were fit for duty; eligibility evalua-
and property at sea; (ii) promoting public               tions were incomplete; and approved mariner
safety; and (iii) protecting the marine environ-         training courses were not audited to ensure
ment.                                                    the highest quality of training. The MLD
                                                         Program also lacked adequate operating pro-
   USCG issues licenses to deck, engineer,               cedures and controls. This occurred because
pilot, and radio officers on merchant vessels,           management oversight of RECs was not per-
and to operators of uninspected towing and               formed, a fully operational management
passenger vessels. Certificates of registry,             information system was not implemented,
which are another form of license, are issued            accountable documents were not controlled,
to staff officers, including pursers, medical            and user fees were not safeguarded.
doctors, and nurses. Merchant mariner docu-
ments are issued to crew members for quali-                OIG Recommendations
fied ratings such as able seaman and qualified
member of the engine department and for                     OIG made 11 recommendations to the
entry-level ratings such as ordinary seaman,             Chief of Staff to strengthen and streamline the
wiper, and steward. During 1995, the                     MLD Program. Seven recommendations con-
USCG’s 20 Regional Examination Centers                   cerned mariner qualifications and four recom-
(REC) issued 49,900 original licenses and                mendations addressed management effective-
documents; and 25,200 renewals, endorse-                 ness and MLD Program oversight. The rec-
ments, and duplicates.                                   ommendations included emphasizing quality
                                                         of sea time and practical skills in evaluating



                                                   14

                                                                               SECTION II - AUDIT ACTIVITY



mariners for licenses and documents, increas-            vice. Further, examination modules are being
ing oversight of RECs, adhering to program               developed by random generation methods,
operating procedures and controls, fully                 and each REC will have the capability to gen-
implementing a new management information                erate distinct and individual examination
system, and establishing accountability for              modules.
forms and user fees.
                                                            Regarding management effectiveness,
  Corrective Actions                                     USCG formed a Quality Action Team to study
                                                         the efficient and effective use of personnel
   USCG officials fully concurred with nine              and resources at RECs. Specifically, the
recommendations and partially concurred                  Quality Action Team will review REC opera-
with two recommendations.            Regarding           tions to identify ways to reduce low value-
mariner qualifications, new USCG regula-                 added functions to free resources to perform
tions will require mariners to demonstrate               necessary administrative functions, and to
professional skills to qualify for licenses and          ensure adequate controls are being developed
documents, and meet appropriate physical                 to safeguard user fee collections. Also, the
standards. A Draft Commandant Notice was                 Marine Safety Manual, Volume III, Marine
issued establishing procedures for authenti-             Industry Personnel was completely over-
cating self-certified sea service, and requiring         hauled, and the automated Merchant Marine
RECs to verify sea service of a sample of                Licensing and Documentation System was
applicants who submit self-certified sea ser-            implemented.


FAA DID NOT PROVIDE EFFECTIVE PROJECT CLOSEOUT PROCEDURES FOR AIRPORT
IMPROVEMENT GRANT FUNDS.
(Report No. R2-FA-7-012)

  OIG Findings                                            OIG Recommendations

   OIG found FAA was not effectively review-            OIG recommended FAA establish require-
ing its airport improvement grants to deter-         ments for deobligating or reprogramming
mine the viability of unexpended grant obliga-       unneeded or idle funds, ensure its grant man-
tions and did not promptly deobligate unneed-        agers have the necessary project status infor-
ed funds. FAA accumulated more than $28              mation to effectively monitor projects from
million of idle grant funds and $1.3 million of      startup through completion, and establish spe-
unneeded funds for the 39 projects reviewed.         cific policies and procedures for the periodic
OIG found FAA grant managers did not have            review and monitoring of unexpended grant
the necessary project status information need-       obligations.
ed to effectively monitor projects from startup
through completion to aid in determining the              Corrective Actions
disposition of unexpended grant obligations.
OIG also found FAA’s grant closeout proce-              FAA concurred with the finding and has
dures did not require the periodic review and        issued a program guidance letter to set policy
monitoring of unexpended grant obligations,          addressing each recommendation.
and did not require the deobligating or repro-
gramming of unneeded funds.



                                                   15

SECTION II - AUDIT ACTIVITY



USCG SHOULD ACHIEVE COST EFFECTIVE OPERATIONS OF THE FACILITIES DESIGN AND
CONSTRUCTION CENTER (FDCC).
(Report No. R2-CG-7-015)

  OIG Findings                                         internal study which proposed eliminating
                                                       one of the FDCCs, and the fact that about 75
   FDCCs provide technical details and input           percent of construction and major mainte-
to shore facility planning projects and docu-          nance projects are located within the area of
ments, and oversee construction and major              responsibility of one FDCC, USCG did not
maintenance of shore facilities. USCG’s two            close either FDCC. Consequently, USCG
FDCCs have a combined staff of 133 military            missed an opportunity to realign FDCC
and civilian engineers, architects, and pro-           resources to more closely match the geo-
curement, and administrative personnel.                graphical workload, make increased use of
About 80 percent of project design, and all            civil engineering capabilities within USCG,
construction, is performed by contractors.             and take advantage of economies associated
OIG concluded that FDCC operations added               with contracting out.
value to the design and construction process
by evaluating engineering alternatives,                  OIG Recommendations
preparing detailed designs, obtaining required
permits, and performing site inspections.                OIG recommended USCG reduce and
However, the FDCC staffing and organiza-               realign FDCC resources to more closely
tional structure did not make the most cost-           match the amount and location of FDCC
effective use of USCG engineering resources.           workload.
Despite decreased workload requirements, an




USCG NEEDS TO IMPROVE THE OIL SPILL CLEANUP PROCUREMENT PROCESS.
(Report No. R3-CG-7-005)

  OIG Findings                                         for the spills. As a result, about $8 million of
                                                       accounts receivable were unbilled.
   USCG policies and procedures for mon-
itoring contractor performance were effective.           OIG Recommendations
OIG found monitoring activities of the oil
spill cleanup services contractors were suffi-            OIG recommended USCG develop uniform
cient to ensure oil spill cleanups were com-           national contracting procedures, and comply
pleted. However, USCG did not award basic              with USCG requirement to perform annual
ordering agreements timely and did not                 market surveys of oil spill cleanup contrac-
ensure negotiated labor and equipment rates            tors. OIG also recommended USCG follow
were within a reasonable price range, result-          established policies and procedures for billing
ing in increased cleanup costs and limiting            responsible parties, recovering oil spill costs,
opportunities to reduce costs. OIG also found          and expediting the billing of accounts receiv-
USCG did not timely bill parties responsible           able.




                                                 16

                                                                                SECTION II - AUDIT ACTIVITY



  Corrective Actions                                    February 1998. New interim billing policies
                                                        and procedures were implemented and $7
  USCG agreed with the recommendations                  million of the $8 million in unbilled accounts
and stated a plan for national contracting pro-         receivable was billed as of August 1997, and
cedures was under development and annual                $480,000 of these billings had been collected.
market surveys would be up to date by


 FINANCIAL STATEMENT AUDITS
 PERFORMED UNDER THE CHIEF
 FINANCIAL OFFICERS ACT OF 1990
THE   GOALS OF THE     CFO ACT     OF   1990   ARE TO ENHANCE THE        FEDERAL GOVERNMENT’S
ACCOUNTABILITY AND CREDIBILITY BY IMPROVING FINANCIAL MANAGEMENT.                  DURING THIS
REPORTING PERIOD ,OIG ISSUED ITS AUDIT                  REPORT ON     DOT’S FIRST CONSOLIDATED
DEPARTMENTWIDE FINANCIAL STATEMENT.


DOT’S CONSOLIDATED FY 1996 FINANCIAL STATEMENT.
(Report No. AD-OT-7-004)

   DOT did not have adequate supporting doc-            opinion. In total, OIG identified 11 material
umentation for Property and Equipment, and              internal control weaknesses, 13 reportable
Operating Materials and Supplies reported on            conditions, and 2 instances of noncompliance
the Statement of Financial Position at a value          with laws and regulations.
of $25.8 billion (representing 38 percent of
DOT’s total assets). Balances recorded in the              OIG recommended adjustments and reclas-
Departmental Accounting and Financial                   sifications totaling $32 billion to improve the
Information System did not agree with                   accuracy of the financial statement. OIG
amounts recorded in automated property sys-             made 72 recommendations to strengthen inter-
tems, physical inventories were not per-                nal controls and comply with laws and regula-
formed, and purchases of property and equip-            tions by: (i) improving the accuracy of DOT’s
ment were inappropriately expensed.                     consolidated financial statement balances for
Furthermore, DOT did not have adequate con-             Property and Equipment, Operating Materials
trols in place to: (i) ensure consistency               and Supplies, and liabilities; and (ii) reconcil-
between financial statements and budgetary              ing budget and financial statement reports.
reports in reporting budget execution results,          DOT made all recommended adjustments to
and (ii) properly record liabilities. OIG was           the final version of the financial statement.
unable to conclude that reported amounts                Corrective action has been initiated on 57 rec-
fairly represented the true value of DOT assets         ommendations. We are awaiting additional
and liabilities and could not express an opin-          comments on the remaining 15 recommenda-
ion, commonly referred to as a disclaimer of            tions.




                                                  17

SECTION II - AUDIT ACTIVITY




 FACILITY/REGIONAL AUDITS
AUDITS ADDRESSING A PROBLEM OR CONDITION AT A SPECIFIC LOCALITY OR FACILITY

FHWA SHOULD IMPROVE ITS OVERSIGHT OF COSTS                FOR   RELOCATION OF UTILITIES ON THE
CA/THT PROJECT.
(Report No. R2-FH-7-025)

  OIG Findings                                            OIG is concerned that FHWA relies too
                                                        heavily on the state’s oversight. Furthermore,
   OIG concluded FHWA participated in costs             OIG reaffirmed its longstanding position that
to relocate a utility company’s transformer             Federal funds should not be used to pay for
substation which were not eligible for Federal          inefficiencies resulting from local project
participation. Relocation and construction of           decisions not supported by demonstrated need
the new substation cost $43.7 million. The              and not eligible for Federal participation.
Federal share of the relocation and construc-
tion costs paid was $37 million.                          OIG Recommendations

   Two independent assessments identified                  OIG recommended FHWA reconsider its
approximately $10 million as “betterments.”             participation in the costs for the new substa-
FHWA should not have participated in these              tion, and increase its oversight of relocation of
costs, or should have had the amounts cred-             other utilities on the CA/THT Project.
ited back. However, FHWA accepted a total
recovery of only $2.6 million of the $10 mil-             Corrective Actions
lion. Furthermore, FHWA staff did not per-
form their own analysis on this relocation, but            OIG has not received FHWA’s response to
relied on the Massachusetts Highway                     this report.
Department’s evaluation.




                                                  18

                                                                                 SECTION II - AUDIT ACTIVITY



E. MANAGEMENT DECISIONS                                    2. Status of Management Decisions

                                                            Tables 2 and 3 are required by P.L. 100-504
  1. Background
                                                         (Section 5(a)(9) of the IG Act) and provide
                                                         statistical summaries of the management deci-
  Section 5 of the IG Act of 1978 requires an
                                                         sions on OIG reports. Included in these tables
identification of each significant recommen-
                                                         are the number of reports, recommendations,
dation described in previous semiannual
                                                         and dollar value of recommendations reported
reports on which corrective actions have not
                                                         for which:
been completed. The IG Act Amendments of
1988, P.L. 100-504, established new require-
                                                           •	 no management decision had been made
ments to report recommendations. The term
                                                              by the commencement of the reporting
“management decision” means the evaluation
                                                              period;
by management of the finding and recommen-
dation, including actions concluded to be nec-
                                                           •	 a management decision was made during
essary. Section 5 of the Act was amended to
                                                              the period, including: (i) the dollar value
require statistical tables on the status of man-
                                                              of agreed to or disallowed costs and
agement decisions; a summary of audit
                                                              (ii) the dollar value of costs not agreed to
reports over 6 months old for which no man-
                                                              or disallowed; and
agement decision was made; a description of,
and reasons for, any significantly revised
                                                           •	 no management decision had been made
management decisions; and information on
                                                              by the end of the reporting period.
any significant management decision with
which the IG is in disagreement.
                                                           In addition, although not required by the
                                                         Act, Table 4 is included to show management
                                                         decisions for reports that recommended pro-
                                                         cedural improvements.




                                                   19

SECTION II - AUDIT ACTIVITY




                                                  Table 2
               Inspector General Issued Reports With Recommendations That Questioned Costs
                                           (Dollars in Thousands)


                                                       Number of         Number of    Questioned   Unsupported*
                                                        Reports       Recommendations   Costs         Costs

 A. For which no management decision had
    been made by the commencement of the
    reporting period                                        12               15         $35,934      ($4,700)

 B. Which were issued during the reporting period           12               22         $22,409      ($4,000)
       TOTALS (A+B)                                         24               37         $58,343      ($8,700)

 C. For which a management decision was made
    during the reporting period                             13               21         $20,454      ($4,000)
        (i) dollar value of disallowed costs                11**             18***      $20,345      ($4,000)
        (ii) dollar value of costs not disallowed            3**              4***         $109          ($0)

 D. For which no management decision has been
    made by the end of the reporting period                 11               16         $37,889      ($4,700)


 *   Unsupported costs are also included in the figures shown as questioned costs.
 ** Includes reports where costs were both allowed and disallowed.
 *** Includes recommendations where costs were both allowed and disallowed.




                                                            20

                                                                                           SECTION II - AUDIT ACTIVITY




                                               Table 3
       Inspector General Issued Reports With Recommendations That Funds Be Put To Better Use


                                                          Number of        Number of               Dollar Value
                                                           Reports      Recommendations          (in Thousands)


A. For which no management decision had
   been made by the commencement of the
   reporting period                                             7                16                  $88,555

B. Which were issued during the reporting period                5                 6                 $111,559
      TOTALS (A+B)                                             12                22                 $200,114

C. For which a management decision was made
   during the reporting period                                  9                12                 $122,278
       (i) dollar value of recommendations that
            were agreed to by management
            – based on proposed management action              8*                11*                $121,888
            – based on proposed legislative action             0                  0                        0
       (ii) dollar value of recommendations that
            were not agreed to by management                    1*                1*                      $390

D. For which no management decision has been
   made by the end of the reporting period                      3                10                  $77,836



*   Includes reports and recommendations where some costs were allowed and other costs were disallowed.




                                                         21

SECTION II - AUDIT ACTIVITY




                                                  Table 4
                    Inspector General Issued Reports With Procedural Recommendations


                                                             Number of         Number of
                                                              Reports       Recommendations

 A. For which no management decision had been made
    by the commencement of the reporting period                  26                 69

 B. Which were issued during the reporting period                20                122
       TOTALS (A+B)                                              46                191

 C. For which a management decision was made
    during the reporting period                                  32                 74
        By Type of Audit
             – Internal Audits                                   18                 56
             – Grant Audits                                      12                 14
             – Contract Audits                                    2                  4

 D. For which no management decision has been made
    by the end of the reporting period                           14                117
        By Type of Audit
             – Internal Audits                                   13                112
             – Grant Audits                                       1                  5
             – Contract Audits                                    0                  0




  3. Summary of Departmental Efforts                      issues to the next higher organizational level
                                                          and to the Secretary, when necessary.

   Departmental Order 8000.1C prescribes                    Table 5 summarizes management decisions
uniform definitions, requirements, and proce-             made during the past 6 months to resolve
dures for processing and resolving audit find-            audit reports.
ings and recommendations. It includes spe-
cific procedures for referring unresolved




                                                    22

                                                                                              SECTION II - AUDIT ACTIVITY




                                                 Table 5
                 Summary of Inspector General Issued Audit Reports With Recommendations
                                          (Dollars in Thousands)


                                                   Number     Number    Questioned Unsupported Funds To Be
                                                     of    of Recommen-   Costs      Costs*       Put To
 Description                                       Reports     dations                          Better Use

 Unresolved as of 3/31/97                              30           100          $35,934        ($4,700)       $88,555
 Audits with Findings During Current Period            26           150          $22,409        ($4,000)      $111,559
     Total to be Resolved                              56           250          $58,343        ($8,700)      $200,114

 Management Decisions During Current Period
    Audits Prior Period                                19            45           $7,702            ($0)      $10,719
    Audits Current Period                              18            63          $12,750        ($4,000)     $111,559
    Total Resolved Reports/Recommendations             37           108          $20,454        ($4,000)     $122,278

 Unresolved as of 9/30/97**                            19           142          $37,889        ($4,700)       $77,836

 Aging of Unresolved Audits
     Less Than 6 Months Old                             8            87           $9,658             (0)            $0
     Between 6 Months and 1 Year                        1             1           $1,710             (0)            $0
     Between 1 Year and 18 Months                       1             9           $3,000             (0)       $36,400
     Between 18 Months and 2 Years                      5            22           $5,125        ($4,700)       $30,908
     Over 2 Years Old                                   4            23          $18,396             (0)       $10,528
         TOTALS                                        19           142          $37,889        ($4,700)       $77,836


 *    Unsupported costs are also included with the figure shown as questioned costs.
 **   A report is considered unresolved if management decisions have not been made on all the report recommendations.




4. 	Status of Unresolved Audit                                  b. I NTERNAL AND GRANTEE AUDIT REPORTS
    Recommendations Over 6 Months Old
a. BACKGROUND                                                      Identified in the following schedule are
                                                                audits from previous semiannual reports con-
                                                                taining findings and recommendations that
   Section 5(a)(10) of the IG Act, as amended,
                                                                required further action as of the end of this
requires a summary of each audit report issued
                                                                reporting period. To facilitate referencing
before the start of this semiannual reporting
                                                                these "open" items to the previous reports, the
period for which no management decision had
                                                                schedule identifies the applicable semiannual
been made by the end of the period, including
                                                                reports. In accordance with P.L. 100-504, IG
the date and title of each report and an expla-
                                                                Act Amendments of 1988, the current status of
nation of the reasons the management deci-
                                                                management action regarding resolution of
sions were not made.
                                                                these reports is also shown.




                                                            23

SECTION II - AUDIT ACTIVITY




                                STATUS OF UNRESOLVED AUDIT

                            RECOMMENDATIONS OVER 6 MONTHS OLD *

                              SEMIANNUAL OCTOBER 1, 1993-MARCH 31, 1994

  FAA-Certification and Surveillance of       R4-FA-4-009              03/07/94       This report was referred to the
  Domestic and Foreign Repair Stations                                                Departmental Resolution
                                                                                      Official in February 1995.
  FAA-Monitoring of Airport Revenues at the   R9-FA-4-001              10/18/93       This report was referred to the
  Phoenix Sky Harbor International Airport                                            Departmental Resolution
                                                                                      Official in June 1994. We were advised
                                                                                      that resolution will be based on a legal
                                                                                      opinion from General Counsel.

                              SEMIANNUALAPRIL 1, 1995-SEPTEMBER 30, 1995

  FTA-Useful Life of Rail Cars Washington     R4-FT-5-091              06/27/95       This report was referred to the
  Metropolitan Area Transit Authority                                                 Departmental Resolution
                                                                                      Official in August 1996. We were
                                                                                      advised that resolution will be based on a
                                                                                      legal opinion from General Counsel.
  FTA-Administration of Capital Grants        R4-FT-5-106              7/11/95        This report was referred to the
  Metro Atlanta Rapid Transit Authority                                               Departmental Resolution
                                                                                      Official in January 1996. We were
                                                                                      advised that resolution will be based on a
                                                                                      legal opinion from General Counsel.

                              SEMIANNUAL OCTOBER 1, 1995-MARCH 31, 1996

  FAA-Controls over Access to Aircraft for Free AS-FA-6-004            02/20/96       This report was referred to the
  Transportation                                                                      Departmental Resolution Official in
                                                                                      August 1996. We were advised
                                                                                      that resolution will be based on a legal
                                                                                      opinion from General Counsel.
  FAA-Use of Airport Revenues Stapleton       R6-FA-6-006              02/08/96       This report was referred to the
  International Airport                                                               Departmental Resolution Official in
                                                                                      August 1996.
  FAA-Voluntary Separation Incentive Payments R6-FA-6-009              02/09/96       Awaiting FAA’s investigation and
                                                                                      U. S. Attorney action.
  FAA-Monitoring Accountability and Use of    R9-FA-6-001              10/30/95       This report was referred to the
  Airport Revenues, Los Angeles                                                       Departmental Resolution Official
                                                                                      in August 1996.
  FAA-Advisory Memorandum on Santa Ynez       R9-FA-6-003              12/06/95       This report was referred to the
  Valley Airport Hotline                                                              Departmental Resolution Official in
                                                                                      August 1996.

                              SEMIANNUALAPRIL 1, 1996-SEPTEMBER 30, 1996

  FAA-Airport Improvement Program Grants      R9-FA-6-015              09/20/96       FAAresponse did not resolve all recommen-
  Provided to Hawaii DOT                                                              dations. We have requested Departmental
                                                                                      Followup Official assistance for final
                                                                                      resolution.

                              SEMIANNUAL OCTOBER 1, 1996-MARCH 31, 1997

  FAA-Single Audit of Federal Grant Funds     Z4-FA-7-018              1/29/97      We were advised resolution should be completed
  Provided to the City of San Antonio                                               during the first quarter FY1998.



  * - OIG is working with the Department to improve the audit resolution process.




                                                                24

                                                                               SECTION II - AUDIT ACTIVITY



5. R EQUIRED REPORTS                                  nance, and operations with AFS locations.
                                                      AVN would also modify the aircraft with
                                                      equipment required of commercial carriers
   Section 5(a)(11) of the IG Act, as amended,
                                                      including Ground Proximity Warning Systems,
requires OIG to report on the description and
                                                      Global Positioning Systems, Flight Data
explanation of any significant revised manage-
                                                      Recorders, Cockpit Voice Recorders, and
ment decisions regarding OIG audit recom-
                                                      Traffic Collision Avoidance Systems. FAA
mendations. In our February 5, 1995, report to
                                                      has concluded this action is the most efficient
FAA on the Utilization of Administrative
                                                      means of meeting flight inspector proficiency
Aircraft, (AS-FA-5-009), OIG recommended
                                                      requirements in aircraft equipped similarly to
FAA dispose of six regional aircraft and use
                                                      those used by the commercial carriers it over-
rental aircraft for the regional support pro-
                                                      sees.
gram. On July 25, 1995, FAA agreed to initi-
ate action to dispose of five of the regional
                                                         Although FAA has concluded this action is
Beechcraft C-90 aircraft by October 1, 1996,
                                                      more efficient than selling the C-90 aircraft,
and retain the sixth Beechcraft F-90 aircraft for
                                                      neither FAA nor OIG can accurately deter-
use in Flight Inspections. OIG agreed with
                                                      mine, at this time, if the proposal is, indeed,
these planned actions.
                                                      cost-effective. At the suggestion of AFS offi-
                                                      cials, we plan to jointly review the new pro-
   On October 23, 1996, FAA requested per-
                                                      gram with FAA after a one-year trial period.
mission from the General Services
                                                      At that time, we will be able to evaluate the
Administration (GSA) to sell three of the five
                                                      program and, if necessary, review other
C-90 aircraft and apply the proceeds to open
                                                      options including potentially selling the air-
market rental of aircraft. On February 3, 1997,
                                                      craft.
GSA granted FAA permission to sell the C-90
aircraft and apply the proceeds to aircraft
                                                         Section 5(a)(12) requires information con-
rentals. However, FAAnow believes it is more
                                                      cerning any significant management decision
efficient to retain the C-90 aircraft and utilize
                                                      with which OIG is in disagreement. At the end
them to accomplish Flight Standards inspector
                                                      of this reporting period, there were no signifi-
proficiency flying requirements rather than
                                                      cant management decisions with which OIG
using rental aircraft.
                                                      was in disagreement.
   On April 21, 1997, Aviation System
Standards (AVN) proposed to assume custodi-           F. APPLICATION OF AUDIT RESOURCES
anship of all five C-90 aircraft. According to
AVN’s proposal, the five Beechcraft C-90 air-
                                                         At the end of the reporting period, the Office
craft, currently assigned to individual regions,
                                                      of AIG for Auditing had an authorized staffing
would be consolidated at the Mike Monroney
                                                      level of 303 full-time positions involved in
Aeronautical Center in Oklahoma City,
                                                      audit operations, of which 125 positions were
Oklahoma, and assigned to AVN. The aircraft
                                                      located in Washington, DC, and the remaining
would then be used on a reimbursable basis by
                                                      178 were distributed among seven OIG
the Flight Standards Service (AFS) at all nine
                                                      regional offices. The distribution of OIG audit
FAA regions primarily for flight inspector pro-
                                                      staffing authorizations is shown in Table 6.
ficiency. AVN would exercise program over-
sight within current budget allocations and
would coordinate aircraft scheduling, mainte-



                                                    25

SECTION II - AUDIT ACTIVITY




                                                     Table 6:
                              Audit Staffing Authorizations as of September 30, 1997

         Office                                                                         Total Personnel

         AIG for Auditing                                                                     12
         Deputy AIG for Auditing-Aviation                                                     30
         Deputy AIG for Auditing-Financial, Economic and Information Technology               40
         Deputy AIG for Auditing-Surface Transportation                                       20
         Deputy AIG for Auditing-Maritime and Departmental Programs                           23
         Region II (New York)                                                                 28
         Region III (Baltimore)                                                               22
         Region IV (Atlanta)                                                                  27
         Region V (Chicago)                                                                   34
         Region VI (Fort Worth)                                                               24
         Region IX (San Francisco)                                                            28
         Region X (Seattle)                                                                   15
             TOTAL                                                                           303

         NOTE: Regional offices support the four Deputy Assistant Inspectors General.




                                                       26

                                                                                                    SECTION II - AUDIT ACTIVITY



  The application of OIG audit resources by Operating Administration during this reporting peri-
od is shown in the following graph.

                                              APPLICATION OF AUDIT RESOURCES
                                               BY OPERATING ADMINISTRATION
                                              APRIL 1, 1997 TO SEPTEMBER 30, 1997



                                        NHTSA                                 FAA
                                          3%                                  29%


                            FHWA
                             12%



                        FTA
                         1%                                                                                FRA
                                                                                                            2%



                       USCG
                        14%




                              MARAD
                                2%
                                                                            OST
                                                                            37%
                                                                            Time expended on RSPA was less than 1 percent




 Note: Resources shown for OSTinclude time spent performing the financial
 statement audit for DOTwhich includes all OAs.




                                                                 27

This page left blank intentionally.




               28

       SECTION III - INVESTIGATIONS ACTIVITY

A. I NTRODUCTION                                     B. INVESTIGATIVE ACCOMPLISHMENTS

   This section summarizes OIG’s investiga-             OIG investigations during this reporting
tive activities for the 6-month period ended         period resulted in $4,945,165 in monetary
September 30, 1997.                                  recoveries which included fines, court-ordered
                                                     restitutions, civil judgments/settlements, and
   The Office of AIG for Investigations              Federal and state recoveries. Monetary recov-
conducts four types of investigations: reactive,     eries are collected by the Federal treasury and,
proactive, preliminary inquiries, and hotlines.      in some instances, are returned to the
Reactive investigations focus primarily on           Department. State monetary recoveries are
individuals or companies identified as subjects      retained by the states.
at the outset of the investigation. Proactive
investigations are OIG-initiated efforts which          OIG investigations were directed toward
focus on DOT operations or activities                specific individuals or companies based on
vulnerable to fraud, waste, and abuse.               alleged or suspected violations of law.
Preliminary inquiries are limited reviews where      Statistical summaries of investigations and
factual bases for full investigations do not yet     synopses of selected significant investigations
exist.    Hotlines consist of the receipt,           are presented as follows:
evaluation, and referral of complaints provided
through various sources and offer anonymity             1. Investigation Activity
to the complainant. Hotline activity is outlined        The pending inventory of investigations as
in Section IV. During this 6-month period, 81        of April 1, 1997, was 456. Seventy-nine cases
percent of direct investigative staff hours was      were opened and 127 cases were closed during
devoted to reactive investigations, 16 percent       the reporting period, resulting in a pending
to proactive investigations, and 3-percent to        caseload of 408 as of September 30, 1997.
hotline activities.                                  Table 8 shows the types of cases pending and
                                                     the affected OAs.

                                                        2. Prosecutive Referrals
                                                        During this 6-month period, 175 cases were
                                                     accepted and 46 were declined for prosecution.
                                                     The number of cases pending before prosecu-
                                                     tive authorities as of September 30, 1997, was
                                                     84.




                                                   29

SECTION III - I NVESTIGATIONS ACTIVITY




                                                       Table 8
                                          Profile of Pending Investigations

    DOT Operating             Number of                                   Types of Cases
    Administrations             Cases              Contracts         Employees             Grants          Other*

    FAA                           183                  30                 40                  6              107
    FHWA                          121                   9                  4                 25               83
    FRA                             2                   0                  2                  0                0
    FTA                            27                   5                  2                 14                6
    MARAD                          13                   4                  6                  0                3
    NHTSA                           3                   1                  0                  0                2
    OST                             7                   0                  3                  1                3
    RSPA                           14                   1                  1                  0               12
    SLSDC                           1                   0                  1                  0                0
    USCG                           37                  11                 14                  1               11
        TOTAL                     408                  61                 73                 47              227


    Percent of Total              100%                 15                 18                 12               55
    * Includes companies and individuals making false statements to departmental program elements.



  3. Judicial and Administrative Actions

  Table 9 shows judicial actions during the reporting period ended September 30, 1997.


                                                        Table 9
                                                   Judicial Actions
                                         April 1, 1997 to September 30, 1997

        Judicial Action                                                                                  Number

        Indictments                                                                                          72
        Convictions                                                                                          76
        Years Sentenced                                                                                      79
        Years Probation                                                                                     140
        Fines                                                                                          $804,087
        Court-ordered Restitutions/Civil Judgments                                                    2,781,975
        Federal Recoveries                                                                            1,335,960
        State Recoveries                                                                                 23,143
        TOTAL                                                                                        $4,945,165


   During this reporting period, OIG was                       tigative activity. Shown in Table 10 are
advised of 85 administrative actions taken by                  administrative actions, including debarments,
the various DOT elements as a result of inves-                 taken during this reporting period.




                                                            30

                                                                       SECTION III - I NVESTIGATIONS ACTIVITY




                                               Table 10
                                       Administrative Actions
                                 April 1, 1997 to September 30, 1997

       Administrative Actions                                                               Number

       Employee Suspensions                                                                     3
       Employee Reprimands                                                                      6
       Employee Resignations/Retirements                                                        1
       Employee Terminations                                                                    5
       Counseling/Other Employee Actions                                                       17
       Debarment/Suspension of Individuals                                                     11
       Debarment/Suspension of Corporations/Companies                                           6
       Price Adjustment                                                                         1
       Corrective Action                                                                       27
       New Procedure Instituted                                                                 7
       Policy Restatement                                                                       1
           TOTAL                                                                               85

C. S ELECTED INVESTIGATIONS
The investigations described below reflect the wide range of investigative efforts during this
reporting period.


MISCHARGING BY USCG C ONTRACTOR RESULTS IN $1 MILLION SETTLEMENT

   This investigation was opened as a result of         beginning the contract, the company began to
a hotline complaint to the OIG that a                   fall behind schedule and over budget. As a
Maryland company was mischarging on con-                result, employees were ordered to bill their
tracts with USCG. A joint task force com-               time to an overhead account, which was then
prised of OIG, NASA/OIG, and Defense                    charged back to other USCG, NASA, and
Criminal Investigative Service (DCIS) was               Department of Defense (DoD) contracts.
formed to investigate the allegations. The              After extensive investigation and negotia-
ensuing investigation disclosed that the com-           tions, the company agreed in August 1997 to
pany was mischarging Government contracts               pay the Government $1 million, representing
by shifting costs from fixed-price contracts to         twice the amount of the mischarging, plus
costs-incurred contracts. One of the contracts          penalties and costs of the investigation. The
subject to the mischarging was a USCG firm-             company has denied wrongdoing.
fixed-price contract to develop a vessel track-
ing system for the USCG. Shortly after


SUPPLIER OF SUBSTANDARD USCG CHEMICAL SUITS FOUND GUILTY, SUSPENDED FROM
FEDERAL CONTRACTING

  In a joint investigation with DCIS, a com-            pany had with USCG to provide chemical
pany president was convicted in June 1997 of            protection suits for use in Operations Desert
mail fraud stemming from a contract his com-            Shield and Desert Storm. The company had


                                                  31

SECTION III - I NVESTIGATIONS ACTIVITY



knowingly sold the USCG 400 chemical pro-               civil complaint was filed in January 1997
tection suits that were part of a lot of suits that     under the False Claims Act to recover over
DoD quality assurance representatives had ear-          $100,000, including treble damages. In March
lier tested and rejected as substandard.                1997, the company was suspended from all
Approximately 100 were issued to USCG per-              Federal Government contracting. Sentencing
sonnel in the Persian Gulf. Additionally, a             is scheduled for October 1997.


FAA CONSTRUCTION COMPANY CONTRACTOR FOUND GUILTY FOR FALSE CLAIMS

   This joint investigation with DCIS was                   these expenses to FAAvia an equitable adjust-
based on information from the FAATechnical                  ment claim of over $1.8 million. The person-
Center, Atlantic City, New Jersey, that a                   al expenses included vacations, child daycare,
Maryland construction company had submit-                   cars, boats, and a loan to an acquaintance. In
ted improper contract claims. It was deter-                 April 1997, the company and its president
mined the company defrauded the Technical                   were found guilty of false claims, false state-
Center by funneling personal expenses                       ments, and obstruction of a DoD audit.
through company overhead and charging                       Sentencing has not yet taken place.


$400,000 OF EMBEZZLED FUNDS REPAID TO FEDERAL TRANSIT ADMINISTRATION (FTA)
GRANTEE

   As a result of a request for assistance by               approximately $497,000. In March 1997, the
local police, OIG investigated an embezzle-                 superintendent died, and his estate subse-
ment from a municipal Maryland transporta-                  quently entered into a settlement and release
tion department, an FTA grantee which                       agreement with the municipality to repay the
received approximately $325,000 for 2 years                 embezzled funds. The estate paid approxi-
for maintenance and operating costs of its                  mately $409,000, in a combination of cash,
buses. An OIG audit of the superintendent’s                 real estate, unpaid wages, and other assets,
financial records disclosed that he embezzled               and forfeited his pension benefits.



FOUR TAXI DRIVERS SENTENCED FOR FRAUDULENT TAXI VOUCHERS CONSPIRACY

   This investigation was initiated after alle-             transit authority and sold them to cab drivers
gations were received from the Chicago                      for a profit. The drivers allegedly submitted
Regional Transit Authority, Office of                       payment vouchers for trips they did not pro-
Inspector General, that a number of taxi cab                vide at or about the maximum allowable
drivers and passengers had conspired to                     amount per trip. Six defendants pled guilty in
defraud the transit authority’s Special                     the scheme. During this reporting period,
Services Program, funded by FTA, by submit-                 four defendants were sentenced to a total of
ting vouchers for payment for trips that did                12 months incarceration - suspended, 132
not take place. It was alleged that passengers              months probation, 300 hours community ser-
purchased FTA subsidized vouchers from the                  vice, and $31,600 restitution.



                                                      32

                                                                        SECTION III - I NVESTIGATIONS ACTIVITY



STATE HIGHWAY OFFICIAL JAILED FOR DEFRAUDING STATE HIGHWAY AGENCY

   This joint investigation with the U.S. Postal         of tires removed and falsely bill the state
Inspection Service and the State Highway                 agency. The state disposal program was par-
Patrol was predicated upon information that a            tially federally funded. The state highway
tire disposal company had an agreement to                official subsequently pled guilty to mail fraud
remove abandoned tires from the right-of-way             and was sentenced to 24 months imprison-
of a Midwestern thoroughfare. It was alleged             ment, 3 years supervised release after prison,
that the disposal company conspired with a               and $5,000 restitution to the state.
state highway official to inflate the numbers



TRANSIT CONTRACTOR JAILED FOR BUS PARTS SUBSTITUTION SCHEME

   As the result of a joint investigation with           plete replacement of the transmission.
the Federal Bureau of Investigation (FBI), a             Overcharges were made on parts and labor.
company and its manager were each con-                   The company and its manager were found
victed on five counts of mail fraud in connec-           guilty by a Federal jury on five counts each of
tion with a scheme to falsely bill an FTA                mail fraud for their involvement in the fraud.
grantee for transmission repairs. The compa-             The manager was sentenced to 30 months of
ny held a contract with a transit agency to              incarceration, and the company was ordered
repair bus transmissions. The company mere-              to pay $825,000 in restitution.
ly replaced minor parts and charged for com-



FEDERAL SEARCH WARRANT ENDS 11 YEARS OF POLLUTING MISSISSIPPI RIVER AND RESULTS
IN COMPANY GUILTY PLEA

   As a result of an investigation conducted             tion admitted to illegally dumping oil into the
jointly with the USCG, Environmental                     river in the New Orleans area for an 11-year
Protection Agency (EPA), FBI, and state and              period beginning in 1986 and ending in
local police, a New Orleans barge cleaning               February 1997. The corporation has agreed,
company pled guilty in U.S. District Court to            as part of the plea, to pay a fine of $300,000;
one count of violating the Clean Water Act.              institute formal training for its employees
The evidence of the violations was uncovered             regarding the handling of hazardous waste
during a search warrant executed at three                and pollutants; retrieve and remove drums
locations near the Mississippi River, and                pushed into the river; and to cooperate in this
through divers who recovered 55 gallon                   continuing joint task force investigation that
drums of solid wastes from the river. Upon               is focusing on HAZMAT violators in the Gulf
execution of the search warrant, the corpora-            Coast area.




                                                   33

SECTION III - I NVESTIGATIONS ACTIVITY



VIRGINIA TRUCK COMPANY OWNER REINDICTED FOR CONTINUED DRIVERS’ LOG FRAUD

   In a joint investigation with FHWA’s OMC,             Pending formal sentencing, OIG subsequently
OIG uncovered a conspiracy by a Virginia                 learned that the practice of causing drivers’
trucking company to falsify drivers’ daily               logs to be falsified was continuing, and that
logs. Falsification involved concealing from             new means of concealing records from the
OMC that drivers were exceeding the hours-               Government had been created. As a result
of-duty requirements specified in the                    of this new information, a second search war-
Department’s motor carrier safety regulations.           rant was executed in November 1996. The
A Federal search warrant was executed at the             owner of the company, and his sister, a com-
company’s premises and business records                  pany officer, were arrested by OIG and state
were seized. In August 1996, the company                 police. In March 1997, a 40-count indictment
and its owner each pled guilty to an                     was returned, charging the company owner,
Information charging conspiracy to conceal               his sister, and the company with conspiracy
information from the Federal Government                  and false statements. Trial is scheduled for
and systematically falsifying records.                   October 1997.


ARKANSAS MOTOR CARRIER FINED, AND OWNER JAILED FOR FALSIFYING LOGS

   In an investigation referred by OMC, the              tious and fraudulent driver logs, required to be
owner of a motor carrier operation in                    prepared and maintained for inspection by
Arkansas was sentenced in U.S. District Court            OMC. The defendants admitted that they
to 12 months in prison followed by 2 years               intentionally falsified the drivers’ logs in
probation and was fined $15,000 for making               order to conceal the excessive number of
false statements. The corporation was also               hours being driven by their truck drivers.
sentenced and was ordered to pay a fine of               They also admitted using fictitious or “ghost”
$100,000 for making false statements and was             names on the logs and other related docu-
also placed on probation for 2 years. The sen-           ments to conceal this illegal activity from
tencing of these two defendants follows a                OMC inspectors.
guilty plea by each to maintaining false, ficti-




NATIONAL TRUCKING COMPANY OWNER JAILED, BARRED FROM TRANSPORTATION
INVOLVEMENT

   In a previously reported case, also referred          his trucking company to falsify their daily dri-
by OMC, a Federal judge in the Northern                  vers’ logs to conceal that they were not in
District of Texas, ordered the owner of a                compliance with DOT highway safety regula-
nationwide trucking firm to cease all involve-           tions. One of the owner’s schemes included
ment in any aspect of interstate or intrastate           instructing drivers to use fictitious names in
transportation of cargo or passengers for the            drivers’logs in order to deceive OMC inspec-
duration of his 60-month probation. The                  tors into believing that drivers were not
owner was also sentenced to 6 months house               exceeding the legal limit of driving hours. The
arrest and fined $5,000 for causing drivers at           motor carrier operator had a history of com-


                                                   34

                                                                       SECTION III - I NVESTIGATIONS ACTIVITY



pliance problems with the FHWA, and its dri-            $5,000, and ordered not to engage in any

vers had been in a number of accidents,                 interstate or intrastate transportation of com-
including a crash with an empty school bus in           mercial cargo. Another corporate official was

Texas. The police cited the driver for fatigue          placed on probation for 12 months while the

and falling asleep at the wheel as a contribut-         owner’s wife, who also pled guilty to related

ing factor to the crash. The company was also           charges, is awaiting sentencing.

sentenced to 3 years probation and fined



CHARGES AND GUILTY PLEAS FILED IN MOTOR FUEL EXCISE TAX (MFET) CASE

   In July 1997, three individuals were                 received a one cent per gallon kickback of
charged and pled guilty in the Northern                 fuel purchased. The defendants were charged
District of Georgia to one count each of filing         with $180,000 of income tax evasion for their
false tax returns. The scheme involved the              kickback scheme involving the non-payment
defendants purchasing, or arranging for pur-            of MFET. The Internal Revenue Service
chases by other diesel fuel customers, large            (IRS) collects and remits MFET revenues to
quantities of diesel fuel from an undercover            the FHWA’s Highway Trust Fund (HTF).
operation below the “rack price” with the               This fund is used for construction and mainte-
knowledge that Federal MFET had not been                nance of our Nation’s highways. The investi-
paid on the fuel. In exchange for their pur-            gation was conducted jointly with the Georgia
chases from, or customer referrals to the               Bureau of Investigation and IRS’s Criminal
undercover fuel business, the defendants                Investigations Division.


MOTOR FUEL EXCISE TAX EVASION SCHEME BROKEN BY JOINT UNDERCOVER OPERATION

   The undercover operation was initiated in            ing period, two brothers were sentenced in
1994 as a joint effort by the FBI, OIG, IRS,            state court for evading state motor fuel taxes.
and State Police to identify entities in                The combined sentence was 72 months proba-
Michigan which were evading MFET.                       tion and a fine of $21,030. During this
Various schemes were used to avoid Federal              reporting period, two additional individuals
and state motor fuel taxes. The undercover              and one business were sentenced. One indi-
operation purchased and sold motor fuel to              vidual received a sentence of 6 months incar-
individuals suspected of evading the excise             ceration. The other individual received a sen-
taxes. The undercover operation was termi-              tence of 24 months probation and $13,968 in
nated with the execution of 14 simultaneous             restitution. The business was sentenced to
search warrants. During the previous report-            $1,050 in restitution.


GUILTY PLEAS REVEAL INTERNATIONAL CONSPIRACY TO SELL DAMAGED ENGINE PARTS FROM
GULF WAR

   This investigation was initiated based upon          British Airways 747. The aircraft was in
information received through the FAA's SUPs             Kuwait at the time of the Gulf war and was
Notification Program. An aviation parts bro-            destroyed by invading Iraqi forces. British
ker purchased parts that originated from a              Airways filed an insurance claim for the loss


                                                  35

SECTION III - I NVESTIGATIONS ACTIVITY



of the aircraft and was paid by Lloyds of               Illinois parts broker pled guilty to one count
London, which contracted to have the aircraft           each for committing mail fraud in their
dismantled and destroyed. Instead, engine               scheme to sell the parts. The two defendants
parts were obtained by an unlicensed parts              were part of an international group of conspir-
broker, who imported them into the U.S. with            ators. The engine parts, some of which had
false Customs declarations. The parts broker            been installed on commercial aircraft, were
attempted to resell the parts by falsifying the         located, removed from the aircraft, and are
historical documents. On August 22, 1997, in            now quarantined.
Chicago, Illinois, a Kuwaiti national and an


AIRCRAFT PARTS SCHEME RESULTS IN JAILING OF TWO INDIVIDUALS AND RESTITUTION
EXCEEDING $500,000

   In a previously reported case, worked joint-         two individuals were indicted in the scheme
ly with the FBI, an investigation was initiated         for wire/mail fraud, conspiracy, money laun-
upon receipt of information that the owner of           dering, conspiracy to launder money, and aid-
an aviation service company was selling                 ing and abetting. During this reporting peri-
unapproved aircraft parts, based on a lack of           od, both individuals were sentenced for mail
traceability, to a major parcel service.                fraud. One was sentenced to 18 months incar-
Information was developed that an employee              ceration, $241,211 restitution, and 36 months
of the parcel service, employed as an aviation          probation. The other was sentenced to 12
parts buyer, was selling parts to his employer          months incarceration, $241,211 restitution,
through his front corporation. The subject              and 36 months probation. The front corpora-
may have made excess profits in the amount              tion was served with a permanent injunction
of $500,000 by controlling both sale and pur-           and required to make a civil payment of
chase prices. This scheme had been ongoing              $80,960 to the victim.
since at least October 1992. Subsequently,


FAA CERTIFIED MECHANIC PLEADS GUILTY TO FRAUDULENT ENGINE OVERHAULS

   In an investigation referred to OIG by               pared to their competitors. They also
FAA, an FAA certified Airframe and                      promised a fast “turnaround” for their repairs
Powerplant mechanic working for two sepa-               and overhauls. In fact, new parts were rarely
rate companies in the business of aircraft              used, proper procedures were not followed,
engine repair and overhaul, pled guilty in the          and numerous documents were falsified to
Northern District of Mississippi to one count           support their fraudulent scheme. Statements
of conspiracy to commit mail and wire fraud.            by other mechanics and FAA inspectors also
The individual was one participant in a con-            established that a significant amount of the
spiracy involving both companies for which              internal aircraft engine parts used in overhaul-
he worked. The co-conspirators represented              ing the engines were never replaced as
nationwide through trade publications that              required by the manufacturer’s specifications
their respective companies could overhaul air-          and Government regulations. Sentencing has
craft engines for substantial savings, as com-          not been scheduled.




                                                  36

                                                                         SECTION III - I NVESTIGATIONS ACTIVITY



AIRCRAFT PARTS OPERATOR PLEADS GUILTY IN COUNTERFEIT PARTS CASE

   The operator of an aircraft parts business in          him which he would then sell as approved air-
southern Florida pled guilty to defrauding the            plane parts at over a thousand percent
purchasers of aircraft parts by providing them            markup. In addition to selling counterfeit air-
with unapproved, counterfeit airplane parts.              craft parts to aviation companies, the operator
The defendant sold aircraft electrical genera-            sold unapproved parts to Federal agents oper-
tor parts used on large, commercial jet air-              ating a joint OIG/FBI/DCIS undercover air-
craft. He fraudulently represented that the               craft parts business. The defendant faces a
parts were manufactured by FAA-approved                   maximum penalty of 5 years imprisonment
manufacturers when, in fact, they were not.               and a $250,000 fine. Sentencing is set for
The operator admitted that he had machine                 October 20, 1997.
shops manufacture the unapproved parts for


SECOND CONVICTION IN PILOT IMPERSONATION SCHEME

   In a previously reported case, an investiga-           board the “jump seat” of another commercial
tion was conducted upon receipt of informa-               aircraft, and that both individuals had con-
tion from FAA that an individual had been                 spired to obtain an FAA Airman’s Certificate
apprehended by police in Pennsylvania for                 under false pretenses. The second individual
attempting to obtain a free “jump seat” ride on           was determined to be responsible for produc-
a domestic commercial flight by presenting                ing false airline identification badges. In
false identification indicating the subject to be         November 1996, the second individual was
a pilot. The subject was indicted on one count            indicted for conspiracy to commit mail fraud.
of false statement, pled guilty, and was sen-             He pled guilty in April 1997 and was sen-
tenced to 4 years probation and $3,220 in                 tenced to 3 years probation, fined $1,000 and
restitution. Further investigation revealed that          ordered to pay restitution in the amount of
another individual was involved who had                   nearly $8,000.
used a fraudulent identification badge to


D. O THER SIGNIFICANT EVENTS

1. EMPLOYEE PROVIDES MISLEADING INFORMATION TO CONGRESS

  At the request of Chairman Frank Wolf,                  which contained materially erroneous, mis-
House Appropriations Subcommittee on                      leading information regarding the disposition
Transportation and Related Agencies, OIG                  of the project. The agency concurred with
investigated an allegation that an employee               OIG’s investigative findings and implemented
misled Congress with respect to decision-                 OIG recommendations.          Administrative
making associated with a multi-million dollar             action in this matter included a formal repri-
project.    OIG’s investigation disclosed,                mand of the employee and relieving the
among other significant findings, that the                employee of project responsibilities.
employee submitted a letter to Congress




                                                    37

SECTION III - I NVESTIGATIONS ACTIVITY



2. J OINT UNAPPROVED PARTS TRAINING PROJECT

   In a cooperative effort with FAA, the Office             approximately 1,200 FAA inspectors have
of AIG for Investigations, participated in the              received the training. OIG investigators
development of the FAA SUPs Training                        taught at all classes jointly with FAA instruc-
Program. The development stage of the pro-                  tors. An additional 26 classes have been
ject started in May 1996 and was completed in               scheduled for FY 98. Comments from the
March 1997. The training was designed to                    attendees have been extremely positive con-
teach FAA inspectors national SUPs policy                   cerning our joint efforts.
and how to properly investigate SUPs allega-
tions from the regulatory perspective.                         Through fostering mutual cooperation and
Included in the 4 day course are 6 hours of                 improved communication, FAA and OIG are
investigative topics which cover the identifi-              committed to working together more effec-
cation of SUPs, fraud indicators, and techni-               tively to combat SUPs.
cal support to law enforcement agencies.
Eight OIG investigators attended FAA-spon-
                                                            E. APPLICATION OF INVESTIGATIVE
sored “SUPs Train The Trainers Course” in
                                                            RESOURCES
February 1997 and were certified by FAA to
instruct the investigative portion of the
course. This is the first time FAA and OIG                     At the end of the reporting period, the
have participated in a joint training program.              Office of AIG for Investigations had an autho-
                                                            rized staffing level of 102 full-time positions
   The instructional phase of the training pro-             involved in investigative operations, of which
ject was initiated in April 1997. Fifty classes             13 positions were located in Headquarters,
were taught during FY 97 at consolidated                    Washington, DC, and the remaining 89 posi-
training locations throughout the United                    tions were distributed among four regional
States and Europe. The locations were based                 offices. The distribution of OIG investigative
upon SUPs activity and FAA needs. To date,                  staffing authorizations is shown in Table 11.


                                                    Table 11
                         Investigative Staffing Authorizations as of September 30, 1997

          Office                                                                Total Personnel

          AIG for Investigations                                                            2
          Deputy AIG for Investigations                                                    11
          Region II (New York)                                                             25
          Region IV (Atlanta)                                                              21
          Region V (Chicago)                                                               17
          Region IX (San Francisco)                                                        26
              TOTAL                                                                       102




                                                      38

                                                            SECTION III - I NVESTIGATIONS ACTIVITY




  The application of OIG investigative resources by Operating Administration during this
reporting period is shown in the following graph.


                      APPLICATION OF INVESTIGATIVE RESOURCES
                           BY OPERATING ADMINISTRATION
                          APRIL 1, 1997 TO SEPTEMBER 30, 1997




                  FHWA
                   28%



                                                                       FAA
                                                                       42%




            MARAD
              2%


                 USCG
                  8%

                          RSPA
                           7%        FTA         OST
                                      3%         10%




                                           39

This page left blank intentionally.




               40

                     SECTION IV - OIG HOTLINE

A. OIG’ S HOTLINE COMPLAINT CENTER ACTIVITIES

   During this reporting period, OIG’s Hotline Complaint Center processed 380 telephone, letter,
and/or walk-in complaints. A statistical summary of the hotline complaints and their disposition
is shown in the following table:



                                                 Table 13
                                       Hotline Complaints Processed

            Disposition of Complaint                                                 Number

            Referred for Audit Inquiry                                                   1
            Referred for Investigative Inquiry                                          81
            Referred to Program Management                                             281
            Referred to Other Agencies                                                  17
                TOTAL                                                                  380




B. SELECTED HOTLINE COMPLAINTS
  Included below is a sample of OIG Hotline results for the reporting period.

FAA SAFETY INSPECTOR REPRIMANDED FOR ABUSING AUTHORITY TO TAKE FLIGHTS

Hotline Complaint                                          OIG Results
   An anonymous individual alleged that an
                                                            The hotline complaint was referred to FAA
FAA safety inspector abused his authority by
                                                         for investigation, which substantiated that the
taking en route inspection trips for personal
                                                         inspector utilized en route inspection trips for
gain.
                                                         personal gain. The inspector admitted he flew
                                                         to Kansas City, Missouri, five times over
                                                         weekends to visit a critically ill brother. The
                                                         inspector also admitted he took personal trips
                                                         to Los Angeles, California, and Las Vegas,
                                                         Nevada, to meet his wife. The inspector was
                                                         issued a letter of reprimand for his actions.




                                                   41

SECTION IV - OIG HOTLINE



FAA EMPLOYEE REPRIMANDED AND SUPERVISOR RECOMMENDED FOR COUNSELING FOR
CONFLICT OF INTEREST VIOLATION
Hotline Complaint                                      resumes and recommended them to an FAA
                                                       contractor under the employee’s supervision.
   A complaint was received alleging an FAA
                                                       These actions were found by FAA to be
supervisory engineering technician abused his
                                                       “somewhat in conflict with his official duties
position to obtain jobs for friends and rela-
                                                       and responsibilities.” As a result, the
tives at an FAA contractor under his supervi-
                                                       employee was issued a letter of reprimand for
sion.
                                                       inappropriate conduct. Additionally, it was
                                                       determined the employee’s supervisor was
  OIG Results
                                                       aware of the employee’s activities, but did
                                                       nothing to stop him. It was recommended the
  The hotline complaint was referred to FAA
                                                       supervisor be counseled for his failure to stop
for investigation, which disclosed the
                                                       his employee from acting improperly.
employee helped family and friends with their

COMPLAINANT RECOGNIZED FOR SAVING USCG FUNDS
Hotline Complaint                                      metal knobs to a USCG Air Station and
                                                       charged the USCG $750 for the parts. It was
   A complaint was received alleging waste
                                                       determined the knobs were formerly listed in
on the part of the USCG regarding the acqui-
                                                       the Federal Supply Catalog at a cost of $23.89
sition of metal knobs, which were listed for
                                                       each, but the parts were discontinued without
$23.89 each in the Federal Supply Catalog,
                                                       replacement before the purchase took place.
but were purchased at a cost of $150 each.
                                                       The results of the investigation were for-
                                                       warded to the Defense Supply Center, which
  OIG Results
                                                       credited the USCG $750. As a result of the
                                                       investigation, the Commanding Officer of the
   The hotline complaint was referred to the
                                                       cognizant USCG Air Station presented a
USCG for investigation, which verified the
                                                       Letter of Appreciation to the complainant for
allegation that a DoD contractor shipped 5
                                                       reporting this issue.


USCG SUPERVISOR COURT MARTIALED, R EDUCED IN RANK FOR THEFT

Hotline Complaint                                        OIG Results
   A complaint was received which alleged a
                                                          The hotline complaint was referred to
USCG supervisor was stealing lawn mowers,
                                                       USCG for investigation, which confirmed the
top soil, mulch, and flowers from newly
                                                       allegation that the USCG supervisor was
arriving shipments. The complainant also
                                                       stealing Government property. He was
stated that although the employee’s supervisor
                                                       charged with larceny under the Uniform Code
was aware of his activities, he did nothing to
                                                       of Military Justice and received a Summary
correct the problem.
                                                       Court Martial. He was found guilty of the
                                                       charges, fined $697, and reduced in rank.



                                                 42

                                                                               SECTION IV - OIG HOTLINE



FHWA EMPLOYEE COUNSELED FOR MISUSING GOVERNMENT TELEPHONES

Hotline Complaint                                        OIG Results
   An anonymous complainant alleged that a
                                                          The hotline complaint was referred to
FHWA Transportation Specialist misused
                                                       FHWA for investigation, which found that the
Government telephones by placing personal
                                                       employee used a Government extension for
calls, some of which were long distance. It
                                                       private purposes approximately six times per
was also alleged that the employee spent a lot
                                                       month during the period in question. The
of time on computer chatrooms during his
                                                       employee also admitted to calling computer
official duty hours.
                                                       chatrooms, but used his personal account
                                                       number. The employee was subsequently
                                                       counseled by his immediate supervisor not to
                                                       use a Government phone for personal
                                                       purposes.



FOUR FALSE FRONT DISADVANTAGED BUSINESS ENTERPRISE TRUCKING FIRMS DISCOVERED IN
TENNESSEE
Hotline Complaint                                        OIG Results
   A complainant alleged that several trucking
                                                          The complaint was referred to the
firms operating in Tennessee were false front
                                                       Tennessee State Department of Transportation
disadvantaged business enterprises.
                                                       for investigation. As a result, certification
                                                       was withdrawn/denied for four trucking
                                                       firms; one firm did not apply for recertifica-
                                                       tion; and one firm was subsequently recerti-
                                                       fied.




                                                 43

SECTION IV - OIG HOTLINE



USCG COUNSELS EMPLOYEES FOR MISSPENDING FUNDS
Hotline Complaint                                      OIG Results
   A complainant alleged that the USCG
                                                        The hotline complaint was referred to
Maintenance and Logistics Business Services
                                                     USCG for investigation, which confirmed the
Branch was violating a computer-related con-
                                                     allegations that the employees were provided
tract which stipulated the contractor’s
                                                     computer training at USCG expense despite a
employees had at least one year’s experience
                                                     stipulation in a USCG contract that these
on the system designated for use. It was
                                                     employees have a minimum of one year’s
alleged that upon learning the contractor’s
                                                     experience in the computer systems designat-
employees did not have such knowledge,
                                                     ed for use. After a review of the investigation
USCG trained the employees with USCG
                                                     by the appropriate USCG legal office, it was
funds.
                                                     concluded that while no criminal violation
                                                     had occurred, all persons involved with the
                                                     action were counseled concerning their oblig-
                                                     ations to ensure Government funds were
                                                     properly expended, and made aware of dis-
                                                     tinctions between Government employees and
                                                     contractor employees.




                                               44

                     SECTION V -
            ORGANIZATION AND MANAGEMENT
A. ORGANIZATION AND STAFFING                            •	 keep the Secretary and the Congress fully
                                                           and currently informed of problems in
                                                           DOT programs and operations.
  The DOT OIG was created by the IG Act of
1978 (P.L. 95-452). The IG Act established
                                                       The IG Act Amendments of 1988 (P.L.
audit and investigative units to:
                                                    100-504) provided certain technical amend-
                                                    ments designed to strengthen the indepen-
  •	 conduct and supervise independent and
                                                    dence and effectiveness of OIGs and required
     objective audits and investigations relat-
                                                    the reporting of management decisions on OIG
     ing to DOT programs and operations;
                                                    audit reports regarding final action by manage-
                                                    ment officials for those reports.
  •	 promote economy, effectiveness, and effi-
     ciency within DOT;
                                                      OIG is divided into two major functional
                                                    units: Office of AIG for Auditing and Office
  •	 prevent and detect fraud, waste, and
                                                    of AIG for Investigations; and four support
     abuse in DOT programs and operations;
                                                    units: Office of Legal Counsel, Office of
                                                    Information Resource Management, Office of
  •	 review and make recommendations
                                                    Human Resources and Training, and Office of
     regarding existing and proposed legisla-
                                                    Financial and Administrative Services.
     tion and regulations relating to DOT pro-
                                                    Nationwide, the AIGs are supported by
     grams and operations; and
                                                    Headquarters and regional staff.




                                                  45

SECTION V - ORGANIZATION AND MANAGEMENT



   The organization of OIG follows:




                                          INSPECTOR GENERAL



                                    DEPUTY INSPECTOR GENERAL


                                                                 OFFICE OF LEGAL COUNSEL




                                                                                    Information Resource Management
ASSISTANT INSPECTOR GENERAL         ASSISTANT INSPECTOR GENERAL
     FOR INVESTIGATIONS                     FOR AUDITING                              Human Resources and Training
                                                                                    Financial and Administrative Services




                                                                                          Deputy AIG
                                                 Deputy AIG         Deputy AIG
          Deputy AIG           Deputy AIG                                                for Financial,
                                                     for           for Maritime &
              for                 for                                                    Economic, &
                                                   Surface         Departmental
         Investigations         Aviation                                                  Information
                                                Transportation       Programs
                                                                                          Technology



                                              * Regional offices support the audit and investigation activities.




                                                   46

                                                                  SECTION V - ORGANIZATION AND MANAGEMENT



  To perform its mission, OIG is authorized 440 full-time equivalents (FTE) for FY 1997.

                                              Table 13
                                     FY 1997 FTE Authorization

                                                                   Headquarters          Field     Total

        IG Immediate Office                                              8                  0        8
        Office of AIG for Auditing                                     125                178      303
        Office of AIG for Investigations                                13                 89      102
        Office of Legal Counsel                                          5                  0        5
        Office of Information Resource Management                        6                  0        6
        Office of Human Resources and Training                           7                  0        7
        Office of Financial and Administrative
           Services                                                     9                   0        9
            TOTALS                                                    173                 267      440



B. S TREAMLINING AND NATIONAL                               •	 Abolishing      the     Director          of
PERFORMANCE REVIEW (NPR) GOALS                                 Administration position

                                                            •	 Downsizing the Office of AIG for
   In support of the NPR theme of streamlin-
                                                               Investigations
ing as well as the Secretarial goal of common
sense government, OIG continues to improve
                                                            •	 Eliminating two regional audit sub-
the efficiency and effectiveness of our opera-
                                                               offices, and
tions. During this reporting period, OIG
merged the Office of AIG for Evaluations
                                                            •	 Establishing a Quality Assurance/
with the Office of AIG for Auditing. The
                                                               Internal Affairs office consisting of two
restructured Office of AIG for Auditing now
                                                               senior employees
consists of four major divisions which report
to the AIG for Auditing. This new organiza-
tion structure allows OIG to be solution ori-             C. R EVIEW OF LEGISLATION AND
ented, responsive to Congressional and                    REGULATIONS
Secretarial interests, and proactive in planning
and scheduling future work on major issues.
                                                             Section 4(a)(2) of the IG Act provides that
The restructuring focuses expertise on major
                                                          the IG shall ". . . review existing and proposed
modes of transportation and improves the
                                                          legislation and regulations relating to pro-
timeliness of providing services.
                                                          grams and operations . . ." of DOT, and make
                                                          recommendations in the semiannual report
  Other streamlining actions taken to
                                                          regarding: (i) the impact on the economy and
improve the efficiency and effectiveness of
                                                          efficiency in the administration of programs
OIG operations include:
                                                          and operations administered or financed by
                                                          DOT, or (ii) the prevention and detection of
  •	 Abolishing the AIG for Evaluations posi-
                                                          fraud, waste, and abuse in such programs and
     tion
                                                          operations. During the reporting period, OIG




                                                    47

SECTION V - ORGANIZATION AND MANAGEMENT



reviewed 6 legislative proposals and 43 pro-          from likely initial manufacturing defects in the
posed regulations.                                    structure; a National Highway Traffic and
                                                      Safety Administration final rule addressing
   Highlights of existing and proposed legisla-       airbag deactivation; and an FAA proposed
tion and regulations reviewed during the              rulemaking to upgrade the fire safety standards
reporting period follow:                              for cargo or baggage compartments in certain
                                                      transport category airplanes.
  Legislation
                                                      D. FREEDOM OF INFORMATION ACT (FOIA)
  Whistleblower       Protection     for   FAA
   Employees
                                                        During this reporting period, OIG had 203
   FAA’s new personnel management system              FOIA requests to process (101 from previous
implemented, pursuant to its FY 1996                  periods and 102 received during this period).
authorizing legislation, left uncertain whether       As of September 30, 1997, 79 requests are still
its employee could continue to seek redress           awaiting processing.       In addition, OIG
through the U.S. Office of Special Counsel            received 8 administrative appeals.
(OSC) and the Merit Systems Protection Board
(MSPB) as a result of a claim of retaliation for         OIG has made elimination of its FOIAback-
whistleblowing to a Member of Congress or             log a priority. We implemented a Task Force
the IG. To remedy that, OIG recommended to            to process backlogged cases and plan to elimi-
Congress a legislative fix to ensure that OSC         nate the backlog within 6 months. In addition,
and the MSPB retain jurisdiction and                  OIG has begun an aggressive effort to work
authority.                                            closer with requesters to identify the specific
                                                      documents they need. By targeting requests
  Regulations                                         better, the volume of documents that must be
                                                      processed is being reduced, enabling a more
   The OIG concurred in four regulatory mat-          timely response.
ters of significance: an FAA advance notice of
proposed rulemaking on the best way to
address the safety of children (child restraint
systems) while onboard aircraft; an FAA final
rule on the fatigue requirements for damage-
tolerant structure on transport category air-
planes to require full-scale fatigue testing, and
inspection thresholds based on crack growth




                                                    48

GLOSSARY OF ACRONYMS AND TERMS
      USED IN THIS REPORT
                             ACRONYMS

AFS............................Flight Standards Service
AIG ............................Assistant Inspector General
AVN ...........................Aviation System Standards
CA/THT.....................Central Artery/Third Harbor Tunnel
CFO............................Chief Financial Officer
DCAA........................Defense Contract Audit Agency
DCIS ..........................Defense Criminal Investigative Service
DoD............................Department of Defense
DOT ...........................Department of Transportation
EPA ............................Environmental Protection Agency
FAA............................Federal Aviation Administration
FBI .............................Federal Bureau of Investigation
FDCC.........................Facilities Design and Construction Center
FHWA ........................Federal Highway Administration
FOIA..........................Freedom Of Information Act
FRA............................Federal Railroad Administration
FTA ............................Federal Transit Administration
FTE ............................Full-Time Equivalent
FY ..............................Fiscal Year
GAO...........................Government Accounting Office
GSA............................Government Services Administration
HAZMAT...................Hazardous Material
HTF............................Highway Trust Fund
IG ...............................Inspector General
IRS .............................Internal Revenue Service
ITS..............................Intelligent Transportation Systems
MARAD.....................Maritime Administration




                                               A-1

MFET.........................Motor Fuel Excise Tax

MLD...........................Merchant Mariner Licensing and Documentation

MSPB.........................Merit System Protection Board

NASA.........................National Aeronautics and Space Administration

NHTSA......................National Highway Traffic and Safety Administration

NPR............................National Performance Review

OA..............................Operating Administration

OIG ............................Office of Inspector General

OMC ..........................Office of Motor Carriers

OSC............................Office of Special Counsel

P.L. .............................Public Law

RSPA..........................Research and Special Programs Administration

SLSDC.......................Saint Lawrence Seaway Development Corporation

SUPs...........................Suspected Unapproved Parts

USCG.........................United States Coast Guard

WMATA.....................Washington Metropolitan Area Transit Authority





                                                A-2

                                                   TERMS


COSTS QUESTIONED - Costs that are questioned by OIG because of: (i) an alleged violation of a provision
of a law, regulation, contract, grant, cooperative agreement, or other agreement or document governing the
expenditure of funds; (ii) a finding that, at the time of the audit, such cost is not supported by adequate doc-
umentation; or (iii) a finding that the expenditure of funds for the intended purpose is unnecessary or unrea-
sonable.

COSTS UNSUPPORTED - Costs that are questioned by OIG because it found, at the time of the audit, such
costs were not supported by adequate documentation.

DISALLOWED COSTS - Questioned costs that management, in managerial decisions, has sustained or agreed
should not be charged to the Government.

ECONOMY AND EFFICIENCY AUDITS - These audits include determining: (i) whether the entity is acquiring,
protecting, and using its resources economically and efficiently; (ii) the causes of inefficiencies or uneco-
nomical practices; and (iii) whether the entity has complied with laws and regulations concerning matters
of economy and efficiency.

FINAL ACTION - The completion of all actions management has concluded, in its decision, are necessary with
respect to the findings and recommendations included in an audit report; and in the event management con-
cludes no action is necessary, final action occurs when a management decision has been made.

FINANCIAL STATEMENT AUDITS - These audits determine: (i) whether the financial statements of an audit-
ed entity present fairly, in all material respects, the financial position, results of operations and changes in
net position, cash flows, and budget and actual expenses in accordance with generally accepted accounting
principles; (ii) whether the associated internal controls are adequate to ensure the integrity of financial trans-
action processing; and (iii) whether the entity has complied with laws and regulations for those transactions
and events that may have a direct and material effect on the principal financial statements.

FINANCIAL-RELATED AUDITS - These audits include reviews of accounting records and other financial infor-
mation for purposes of assisting DOT management in determining if amounts claimed or billed as indirect
rates are reasonable and allowable, and, if appropriate, financial regulations were followed.

INVESTIGATIVE RECOVERIES - The recoveries of money or property of the Federal Government as a result
of OIG investigations. The amounts shown represent: (i) recoveries which management has committed to
achieve as the result of investigations during the reporting period; (ii) recoveries where a contractor, during
the reporting period, agrees to return funds as a result of investigations; and (iii) actual recoveries during the
reporting period not previously reported in this category. These recoveries are the direct result of inves-
tigative efforts of OIG.

INVESTIGATIVE REFERRALS - These cases require additional investigative work, civil or criminal prosecu-
tion, or disciplinary action. These cases are also referred by OIG to investigative and prosecutive agencies
at the Federal, state, or local level, or to agencies for management or administrative action. An individual
case may be referred for disposition in one or more of these categories.

MANAGEMENT DECISIONS DURING THE PERIOD - The evaluation by management of the findings and rec-
ommendations included in an audit report and the issuance of a final decision by management concerning
its response to such findings and recommendations, including actions concluded to be necessary.




                                                      A-3

OIG H OTLINE COMPLAINT CENTER - Activities consist of the receipt, evaluation, and referral of complaints
for additional investigation, audit, or administrative action.

PROACTIVE INVESTIGATIONs - OIG-initiated efforts which focus on DOT operations or activities that are vul-
nerable to fraud, waste, and abuse. They may be narrow in scope and test a specific activity or broader-based,
systemic reviews with an emphasis on the development and refinement of preventive measures. Proactive
investigations can be initiated upon prior indications or, as in most cases, based on analysis showing a partic-
ular vulnerability. Quite often, during the course of the assignments, specific targets (companies and/or indi-
viduals) are identified and reactive cases are initiated. Most of these cases are complex, sensitive, and of a
protracted nature which require a substantial amount of investigative resources.

PROGRAM AUDITS - These audits include determining: (i) the extent to which the desired results or benefits
established by Congress or other authorizing body are being achieved; (ii) the effectiveness of organizations,
programs, activities, or functions; and (iii) whether the entity has complied with laws and regulations applic-
able to the program.

QUESTIONED COSTS FOR WHICH NO MANAGEMENT DECISION HAS BEEN MADE - Costs questioned by OIG
on which management has not made a determination of eligibility for reimbursement, or on which there
remains disagreement between OIG and management. The Department has formally established procedures
for determining the ineligibility of costs questioned. Because this process takes considerable time, this cate-
gory may include costs that were questioned in both this and prior reporting periods.

REACTIVE INVESTIGATIONS - These investigations primarily focus on specific individuals or companies that
are usually targets at the outset of an investigation based on some alleged or suspected violation of the law.
Reactive investigations continue to be the area of greatest emphasis and dedication of staff effort.

RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE - Recommendations by OIG that funds could be
more efficiently used if management took actions to implement and complete the recommendations, includ-
ing: (i) reductions in outlays; (ii) deobligations of funds from programs or operations; (iii) withdrawal of
interest subsidy costs on loans or loan guarantees, insurance, or bonds; (iv) costs not incurred by implement-
ing recommended improvements related to the operations of the establishment, a contractor, or grantee; (v)
avoidance of unnecessary expenditures noted in preaward reviews of contract or grant agreements; or (vi) any
other savings which are specifically identified. (Note: Dollar amounts identified in this category may not
always allow for direct budgetary actions, but generally allow the Department to use the amounts more effec-
tively in accomplishment of program objectives.)




                                                     A-4

                                                                                                   Appendix B


                                  OFFICE OF INSPECTOR GENERAL

                                          LISTING OF REPORTS

                               April 1, 1997 THROUGH September 30, 1997


                                 FEDERAL AVIATION ADMINISTRATION

INTERNAL AUDITS - 7 Reports
REPORT      DATE             SUBJECT                             LOCATION            RECOMMENDATIONS MADE
ASFA7006   97/06/06 FAA’s FY 1996 Apportionment of              Washington, DC       No Recommendations
                    Formula Grants
ASFA7008   97/04/04 Oversight of Extended Travel                Washington, DC       $40,787 Questioned
                                                                                     Procedural
ASFA7009   97/04/14 Oversight of Power Systems in the           Washington, DC       No Recommendations
                    National Airspace System
R2FA7012   97/04/30 Project Closeout Procedures on              Washington, DC       $1,300,000 Better Use
                    Airport Improvement Grant Funds                                  Procedural
R4FA7035   97/06/25 Diversion of Airport Revenue Dade           Miami, FL            $5,160,391 Questioned
                    County Aviation Department                                       $4,000,000 Unsupported
                                                                                     Procedural
R9FA7006   97/04/17 Federal Air Marshall Program                Atlantic City, NJ    $462,000 Questioned
                                                                                     $79,000 Better Use
                                                                                     Procedural
R9FA7007   97/04/24 Airport Revenues At Prescott                Prescott, AZ         No Recommendations
                    Municipal Airport



GRANT AUDIT - POSTAWARD - 15 Reports
REPORT      DATE            SUBJECT                              LOCATION            RECOMMENDATIONS MADE
R0FA7007   97/06/19 City of Idaho Falls                         Idaho Falls, ID      No Recommendations
R0FA7008   97/07/14 QCR Salt Lake City Corp.                    Salt Lake City, UT   No Recommendations
R2FA7024   97/08/06 QCR Coopers & Lybrand Single Audit          Boston, MA           No Recommendations
                    Massachusetts Port Authority
Y4FA7033   97/04/01 City of Lincoln, Nebraska                   Lincoln, NE          No Recommendations
Y4FA7034   97/04/01 Jacksonville Port Authority                 Jacksonville, FL     No Recommendations
Y4FA7036   97/04/01 Massachusetts Port Authority                Boston, MA           No Recommendations
Y4FA7040   97/04/24 State of Hawaii, Department of              Honolulu, HI         Procedural
                    Transportation, Airports Division
Y4FA7042   97/05/12 City of Idaho Falls                         Idaho Falls, ID      No Recommendations
Y4FA7043   97/05/15 City of St. Joseph, Missouri                St. Joseph, MO       No Recommendations
Z4FA7050   97/06/09 City of Houston, Texas                      Houston, TX          No Recommendations
Y4FA7051   97/06/20 City of Wichita, Kansas                     Wichita, KS          Procedural
Y4FA7058   97/08/28 City of Baltimore                           Baltimore, MD        No Recommendations
Y4FA7060   97/08/28 City of Dallas, Texas                       Dallas, TX           No Recommendations
Y4FA7061   97/08/28 Pitkin County                               Aspen, CO            No Recommendations
Y4FA7066   97/09/29 Port of Seattle                             Seattle, WA          No Recommendations




                                                         B-1

                                                                                                 Appendix B


                                   OFFICE OF INSPECTOR GENERAL

                                            LISTING OF REPORTS

                                 April 1, 1997 THROUGH September 30, 1997


                                   FEDERAL HIGHWAY ADMINISTRATION

INTERNAL AUDITS - 2 Reports

REPORT      DATE             SUBJECT                             LOCATION          RECOMMENDATIONS MADE
R0FH7009   97/08/26 Emergency Relief Program                    Washington, DC     $1,900,000 Questioned
                                                                                   $102,100,000 Better Use
                                                                                   Procedural
R2FH7025   97/08/12 Relocation of Utilities, Central            Boston, MA         Procedural
                    Artery/Third Harbor Tunnel Project



GRANT AUDIT - POSTAWARD - 14 Reports
REPORT      DATE             SUBJECT                             LOCATION          RECOMMENDATIONS MADE
R2FH7016   97/04/17 QCR Office of Auditor General State         Pawtucket, RI      No Recommendations
                    of Rhode Island
R2FH7023   97/08/06 QCR Deloitte & Touche Single Audit          Boston, MA         No Recommendations
                    Commonwealth of Massachusetts
Z4FH7037   97/04/07 State of Ohio                               Columbus, OH       $7,813,948 Questioned
                                                                                   Procedural
Y4FH7038   97/04/08   Wyoming Department of Transportation      Cheyenne, WY       No Recommendations
Z4FH7041   97/05/12   State of Wisconsin                        Madison, WI        No Recommendations
R4FH7044   97/06/04   State of Alabama                          Montgomery, AL     No Recommendations
Y4FH7059   97/08/28   State of Hawaii, Department of            Honolulu, HI       No Recommendations
                      Transportation, Highways Division
Y4FH7062   97/09/04   State of Maryland                         Annapolis, MD      No Recommendations
Z4FH7063   97/09/30   State of Texas                            Austin, TX         $391,161 Questioned
Z4FH7064   97/09/29   State of Indiana                          Indianapolis, IN   No Recommendations
Y4FH7065   97/09/29   Illinois Department of Transportation     Springfield, IL    No Recommendations
R9FH7008   97/05/06   State of California                       Sacramento, CA     No Recommendations




                                                         B-2

                                                                                           Appendix B


                                   OFFICE OF INSPECTOR GENERAL

                                           LISTING OF REPORTS

                                April 1, 1997 THROUGH September 30, 1997



                                FEDERAL RAILROAD ADMINISTRATION

INTERNAL AUDITS - 1 Report

REPORT       DATE            SUBJECT                           LOCATION        RECOMMENDATIONS MADE
ADFR7005   97/04/21	 Supplementary Report on Internal         Washington, DC   Procedural
                     Control Systems & Compliance with Laws
                     and Regulations




                                                       B-3

                                                                                              Appendix B


                                 OFFICE OF INSPECTOR GENERAL

                                          LISTING OF REPORTS

                               April 1, 1997 THROUGH September 30, 1997



                                       MARITIME ADMINISTRATION

GRANT AUDIT - POSTAWARD - 2 Report

REPORT      DATE             SUBJECT                          LOCATION          RECOMMENDATIONS MADE
R2MA7017   97/04/21 Calculations Farrell Lines, Inc          New York, NY       Procedural
                    FY 1997 Subsidizable Costs
                    For Per Diem
R9MA7012   97/09/17 American Presidential Lines, Ltd.        Oakland, CA        $80,000 Better Use
                    Operating Differential Subsidy Claim



CONTRACT AUDITS - 6 Reports

REPORT      DATE             SUBJECT                          LOCATION          RECOMMENDATIONS MADE
R2MA7018   97/05/07 Apex Marine Corporation                  Lake Success, NY   $45,073 Questioned
                    National Shipping Authority                                 Procedural
R2MA7019   97/05/19 Aquarius Marine Company                  Lake Success, NY   $3,111 Questioned
                    Maintenance and Repair Costs
R3MA7006   97/05/12 Chestnut Shipping Company                Bala Cynwyd, PA    No Recommendations
                    Maintenance and Repair Costs
R6MA7005   97/04/01 Lykes Brothers Steamship Company         New Orleans, LA    No Recommendations
                    National Shipping Authority
R6MA7006   97/04/01 Lykes Brothers Steamship Company         New Orleans, LA    $2,592,802 Questioned
                    Operating Differential Subsidy Claim
R6MA7008   97/09/12 Lykes Brothers Steamship Company         New Orleans, LA    No Recommendations
                    Operating Differential Subsidy Claim




                                                      B-4

                                                                                              Appendix B


                                  OFFICE OF INSPECTOR GENERAL

                                          LISTING OF REPORTS

                               April 1, 1997 THROUGH September 30, 1997



                         OFFICE OF THE SECRETARY OF TRANSPORTATION

INTERNAL AUDITS - 1 Report

REPORT      DATE             SUBJECT                           LOCATION           RECOMMENDATIONS MADE
ADOT7004   97/04/10 Department of Transportation              Washington, DC      Procedural
                    Consolidated Financial Statement



GRANT AUDIT - POSTAWARD - 1 Report

REPORT      DATE             SUBJECT                           LOCATION           RECOMMENDATIONS MADE
Y4OT7052   97/06/20 Howard County                             Ellicott City, MD   No Recommendations




                                                       B-5

                                                                                               Appendix B


                                   OFFICE OF INSPECTOR GENERAL

                                           LISTING OF REPORTS

                                April 1, 1997 THROUGH September 30, 1997


                                     UNITED STATES COAST GUARD

INTERNAL AUDITS - 5 Reports

REPORT      DATE            SUBJECT                              LOCATION        RECOMMENDATIONS MADE
ADCG7003   97/04/04 Actuarial Estimated Retired Pay and         Washington, DC   Procedural
                    Health Care
R0CG7006   97/04/21 Polar Class Icebreaker Reliability          Washington, DC   Procedural
                    Improvement Project
R2CG7015   97/07/25 Facilities Design and Construction          Washington, DC   Procedural
                    Centers
R3CG7005   97/04/18 Oil Spill Cleanup Procurements              Washington, DC   Procedural
                                                                                 $8,000,000 Better Use
R9CG7013   97/09/30 Marine Licensing and Documentation          Ballston, VA     Procedural


OTHER - 1 Report

REPORT      DATE             SUBJECT                             LOCATION        RECOMMENDATIONS MADE
R2CG7014   97/07/17	 Management Advisory On Limited Scope       New York, NY     Procedural
                     of Governors Island Personal Property




                                                         B-6

                                                                                                       Appendix B


                                    OFFICE OF INSPECTOR GENERAL

                                            LISTING OF REPORTS

                                 April 1, 1997 THROUGH September 30, 1997



                                   FEDERAL TRANSIT ADMINISTRATION

GRANT AUDIT - POSTAWARD - 21 Reports

REPORT      DATE               SUBJECT                            LOCATION             RECOMMENDATIONS MADE
R3FT7007   97/09/25   State of Maryland                          Annapolis, MD         No Recommendations
Y4FT7032   97/04/01   City of Cedar Rapid, Iowa                  Cedar Rapid, IA       No Recommendations
Y4FT7039   97/04/14   Dallas Area Rapid Transit                  Dallas, TX            No Recommendations
Z4FT7045   97/06/05   City of Boise, Idaho                       Boise, ID             No Recommendations
Z4FT7046   97/06/05   City of Boise, Idaho                       Boise, ID             No Recommendations
Y4FT7047   97/06/05   Massachusetts Bay Transportation           Boston, MA            $1 Questioned
                      Authority                                                        Procedural
Y4FT7049   97/06/05   Southeastern Regional Transit              Boston, MA            No Recommendations
                      Authority
Y4FT7053   97/06/26   Omnitrans                                  San Bernardino, CA    No   Recommendations
Y4FT7054   97/07/16   Regional Transit Authority                 New Orleans, LA       No   Recommendations
Y4FT7056   97/08/07   Palm Beach County                          West Palm Beach, FL   No   Recommendations
Y4FT7057   97/08/14   Los Angeles County Metropolitan            Los Angeles, CA       No   Recommendations
                      Transportation Authority
Y4FT7067   97/0930    Puerto Rico Department of                  San Juan, PR          $2 Questioned
                      Transportation and Public Works
Y4FT7068   97/0930    Puerto Rico Department of                  Santurce, PR          $2 Questioned
                      Transportation and Public Works
Y4FT7069   97/0930    Puerto Rico Department of                  Santurce, PR          No Recommendations
                      Transportation and Public Works
R5FT7003   97/04/15   Northern Indiana Commuter Transportation   Chesterton, IN        No Recommendations
                      District
R5FT7004   97/07/30   Des Moines Metropolitan Transit            Des Moines, IA        No Recommendations
                      Authority
R6FT7007   97/05/15   Via Metropolitan Transit San               San Antonio, TX       No Recommendations
                      Antonio, Texas
R6FT7013   97/09/23   Dallas Area Rapid Transit                  Dallas, TX            No Recommendations
R9FT7009   97/05/21   Golden Gate Bridge Highway and             San Francisco, CA     No Recommendations
                      Transportation
R9FT7010   97/06/13   Sunline Transit Agency                     Thousand Palms, CA    No Recommendations
R9FT7011   97/08/14   Omnitrans                                  San Bernardino, CA    No Recommendations




                                                        B-7

This page left blank intentionally.




              B-8

                    REPORTING REQUIREMENTS
   To facilitate the reader’s understanding of OIG’s compliance with the specific statuto-
ry reporting requirements prescribed in the IG Act of 1978, as amended, the following
list is provided.


                                       REQUIREMENTS                                                 Page

Section 4(a)(2) - Review of Existing and Proposed
                  Legislation and Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47

Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies . . . . . . . . . . . . . 12

Section 5(a)(2) - Recommendations for Corrective Actions
                  with Respect to Significant Problems, Abuses, and Deficiencies . 13

Section 5(a)(3) - Prior Recommendations Not Yet Implemented . . . . . . . . . . . . . . 23

Section 5(a)(4) - Matters Referred to Prosecutive Authorities . . . . . . . . . . . . . . . . 30

Section 5(a)(5) - Summary of Instances Where Information
                  Was Unreasonably Refused . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii

Section 5(a)(6) - List of Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1

Section 5(a)(7) - Summary of Particularly Significant Reports . . . . . . . . . . . . . . . 12

Section 5(a)(8) - Statistical Table of Management Decisions
                  on Questioned Costs. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

Section 5(a)(9) - Statistical Table on Management Decisions on
                  Recommendations That Funds Be Put To Better Use . . . . . . . . . 21

Section 5(a)(10) - Summary of Each Audit Report Over 6 Months Old
                   for Which No Management Decision Has Been Made . . . . . . . . 24

Section 5(a)(11) - Description and Explanation for Any Significant . . . . . . . . . . . . . 25
                   Revised Management Decisions

Section 5(a)(12) - Information on Any Significant Management Decisions
                   with Which the IG Disagrees. . . . . . . . . . . . . . . . . . . . . . . . . . . . 25




                                                    C-1

This page left blank intentionally.
                       WANT TO KNOW MORE ?

  To meet the needs of readers who wish to know more about a particular audit discussed in this
report, OIG’s final audit reports are now available on the Internet. OIG’s home page Internet
address is:

   http://www.dot.gov/oig/

   If you do not access to the Internet, OIG has provided a tear-out card at the bottom of this page
that folds into a self-mailer (postage required). Please identify those reports you would like to
receive and include your name and mailing address. The reports will be sent to you as soon as
possible.

  Thank you for your interest in the work of OIG. OIG will continue to explore ways to make
these reports responsive to the readers’ needs within the parameters of OIG’s statutory require-
ments. Please address any questions or comments to OIG, U.S. Department of Transportation,
Room 7422, 400 Seventh Street, S.W., Washington, DC 20590.



                    Please send me the following report(s):

 ___ R0-FH-7-009 FHWA Emergency Relief Program
 ___ R9-CG-7-013 Marine Licensing and Documentation
 ___ R2-FA-7-012 Project Closeout Procedures on Airport
                 Improvement Grant Funds
 ___ R2-CG-7-015 USCG Facilities Design and Construction
                 Centers
 ___ R3-CG-7-005 USCG Oil Spill Cleanup Procurements
 ___ AD-OT-7-004 DOT Consolidated Financial Statement
 ___ R2-FH-7-025 Relocation of Utilities, Central Artery/Third
                 Harbor Tunnel Project

        Name:
     Address:

Office of Inspector General


U.S. Department of Transportation


Room 7422


400 Seventh Street S.W.


Washington, DC 20590





             Staple
                                                                                                                       Office of
 U.S. Department of Transportation                                                                            Inspector General




                                                                   FRAUD
                                                       WASTE
                                             ABUSE


             If you have knowledge of fraud, waste, or abuse involving contracts, grants, personnel, or regulatory programs
                 administered by the U.S. Department of Transportation, including the following organizations, contact the
                                                    INSPECTOR GENERAL'S HOTLINE.
                                                 Office of the Secretary of Transportation
                                                      Federal Aviation Administration
                                                      Federal Highway Administration
                                                        United States Coast Guard
            CALL:                                     Federal Railroad Administration                                WRITE:
INSPECTOR GENERAL'S HOTLINE                  National Highway Traffic Safety Administration                 INSPECTOR GENERAL
          TOLL FREE                                    Federal Transit Administration                      POST OFFICE BOX 23178
                                                          Maritime Administration
         800-424-9071                        St. Lawrence Seaway Development Corporation
                                                                                                       WASHINGTON,        D.C. 20026-0178
        (202) 366-1461                       Research and Special Programs Administration

                                          You may also visit the Special Agent-in-Charge in your area.

                                               • YOU CAN REMAIN ANONYMOUS
                                    • YOU CAN REQUEST THAT YOUR IDENTITY BE PROTECTED
                         • GOVERNMENT EMPLOYEES ARE PROTECTED FROM REPRISALS BY THEIR EMPLOYERS

            OFFICE                GEOGRAPHICAL AREAS                                   OFFICE                    GEOGRAPHICAL AREAS
 NEW YORK REGIONAL OFFICE         Delaware, Connecticut, Maine, Maryland,    CHICAGO REGIONAL OFFICE             Illinois, Indiana, Iowa, Kansas,
 Special Agent-in-Charge          Massachusetts, New Hamphshire,             Special Agent-in-Charge             Michigan, Minnesota, Missouri,
 (212) 264-8700                   New York, Pennsylvania, Rhode Island,      (312) 353-0106                      Nebraska, North Dakota, Ohio,
 26 Federal Plaza, Rm 3134        Vermont, and New Jersey                    111 North Canal Street, Rm 677      South Dakota, and Wisconsin
 New York, New York 10278                                                    Chicago, Illinois 60606


 ATLANTA REGIONAL OFFICE          Alabama, District of Columbia, Florida,    SAN FRANCISCO REGIONAL OFFICE       Alaska, Arizona, California, Colorado,
 Special Agent-in-Charge          Georgia, Kentucky, Mississippi,            Special Agent-in-Charge             Hawaii, Idaho, Montana, Nevada,
 (404) 562-3869                   Tennessee, North Carolina,                 (415) 744-3090                      Oregon, Utah, Washington, Wyoming,
 61 Forsyth St., S.W.             South Carolina, Virginia, West Virginia,   201 Mission Street, Suite 2310      and U.S. Possessions-Pacific
 Suite 17T60                      Puerto Rico, and Virgin Islands            San Francisco, California 94105
 Atlanta, Georgia 30309           Arkansas, Louisiana, New Mexico,
                                  Oklahoma, and Texas
